<html>
<title> - THE POSTURE OF THE U.S. STRATEGIC COMMAND (USSTRATCOM)</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



                         [H.A.S.C. No. 110-31]
 
         THE POSTURE OF THE U.S. STRATEGIC COMMAND (USSTRATCOM)

                               __________

                                HEARING

                               BEFORE THE

                     STRATEGIC FORCES SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             MARCH 8, 2007

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     
                     U.S. GOVERNMENT PRINTING OFFICE
37-317 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001



                     STRATEGIC FORCES SUBCOMMITTEE

                ELLEN O. TAUSCHER, California, Chairman
JOHN SPRATT, South Carolina          TERRY EVERETT, Alabama
SILVESTRE REYES, Texas               TRENT FRANKS, Arizona
RICK LARSEN, Washington              MAC THORNBERRY, Texas
JIM COOPER, Tennessee                MICHAEL TURNER, Ohio
HANK JOHNSON, Georgia                MIKE ROGERS, Alabama
DAVID LOEBSACK, Iowa
                Eryn Robinson, Professional Staff Member
                 Kari Bingen, Professional Staff Member
                    Jason Hagadorn, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2007

                                                                   Page

Hearing:

Thursday, March 8, 2007, The Posture of the U.S. Strategic 
  Command (USSTRATCOM)...........................................     1

Appendix:

Thursday, March 8, 2007..........................................    35
                              ----------                              

                        THURSDAY, MARCH 8, 2007
         THE POSTURE OF THE U.S. STRATEGIC COMMAND (USSTRATCOM)
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Everett, Hon. Terry, a Representative from Alabama, Ranking 
  Member, Strategic Forces Subcommittee..........................     4
Tauscher, Hon. Ellen O., a Representative from California, 
  Chairman, Strategic Forces Subcommittee........................     1

                               WITNESSES

Cartwright, Gen. James E., Commander, U.S. Strategic Command.....     5

                                APPENDIX

Prepared Statements:

    Cartwright, Gen. James E.....................................    39

Documents Submitted for the Record:
    [There were no Documents submitted.]

Questions and Answers Submitted for the Record:

    Mr. Everett..................................................    69
    Ms. Tauscher.................................................    61
         THE POSTURE OF THE U.S. STRATEGIC COMMAND (USSTRATCOM)

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                             Strategic Forces Subcommittee,
                           Washington, DC, Thursday, March 8, 2007.
    The subcommittee met, pursuant to call, at 3:02 p.m., in 
room 2118, Rayburn House Office Building, Hon. Ellen Tauscher 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. ELLEN O. TAUSCHER, A REPRESENTATIVE 
    FROM CALIFORNIA, CHAIRMAN, STRATEGIC FORCES SUBCOMMITTEE

    Ms. Tauscher. The hearing will come to order.
    First, before we begin the hearing, I would like to 
acknowledge the presence of our distinguished Ranking Member, 
Mr. Everett of Alabama.
    And I know that I am speaking not only for myself and my 
family, but my constituents in California and the American 
people. We want to wish our condolences to Mr. Everett for the 
tragedy that occurred in his district when the tornado struck 
just last week resulting in the loss of his constituents and 
friends from his constituency. And we want to offer him our 
condolences, and condolences to the families in his 
constituency.
    Mr. Everett. And I thank my friend and colleague.
    And thank you for your remarks, General Cartwright.
    And the other colleagues in the Congress that have 
mentioned it, thank you.
    Ms. Tauscher. Today, the Strategic Forces Subcommittee 
meets to receive testimony from General James Cartwright, 
Commander of United States Strategic Command (USSTRATCOM).
    General, thank you, again, for being here.
    This hearing is an important opportunity for the 
subcommittee to consider the posture of our Nation's strategic 
forces. Nuclear weapons have and will continue to play a 
central role in deterring threats to the United States and our 
allies.
    However, today, we face significant choices on the role and 
size of our strategic forces to meet evolving threats from 
nation states and terrorist groups.
    We also have to consider new threats to our space assets 
and cyber-systems, particularly in light of China's recent 
anti-satellite (ASAT) test. It is imperative that our military 
capabilities adapt to these new threats and address possible 
vulnerabilities.
    General Cartwright, I am grateful that you agreed to appear 
here today to discuss these matters. Your service to our 
country is second to none. As STRATCOM Commander, you have one 
of the broadest job descriptions in the military.
    STRATCOM merged with U.S. Space Command in 2002 and, just a 
year later, was assigned four additional mission areas: global 
strike; missile defense integration; information operations; 
and global command, control, communications, computers, 
intelligence, surveillance, and reconnaissance. Like you, my 
concern is to ensure that all of these missions and tools fit 
together seamlessly.
    Since 9/11, U.S. strategic posture has changed 
significantly. The Bush Administration's Nuclear Posture Review 
(NPR), released in 2002, proposed a change in paradigm from the 
Cold-War nuclear TRIAD of intercontinental ballistic missiles 
(ICBMs), submarine-launched ballistic missiles (SLBMs), and 
bombers to a new TRIAD composed of both nuclear and non-nuclear 
offensive-strike systems, both active and passive defenses, and 
responsive infrastructure.
    The Quadrennial Defense Review (QDR), completed in 2006, 
built upon these changes by calling for a wider range of non-
kinetic and conventional strike capabilities while maintaining 
a robust nuclear deterrent.
    A conventional global strike capability that can hold 
fleeting targets anywhere in the world at risk is a powerful 
concept. But there are a number of important questions that 
need to be answered before moving forward with any particular 
program.
    Specifically, in last year's defense authorization bill, 
Congress expressed concerns about the proposed Conventional 
Trident Modification Program's concept of operations (CONOPS) 
and assurance strategy.
    General, I would be interested in hearing your views on the 
issues raised by the Congress in the fiscal year 2007 Defense 
Authorization Act.
    I strongly believe that we a need a public debate on the 
nature of strategic deterrence and the role of nuclear weapons.
    General, as you know, I believe that finding ways to 
prevent the spread and possible use of nuclear technology, 
material and weapons is at least important as the future of the 
nuclear arsenal. And I know you recognize that these two issues 
are intimately connected.
    Today, I would like to hear your perspective on how we will 
ensure strategic stability in the future and prevent nuclear 
terrorism.
    Finally, I would be interested in your thoughts on how we 
might expand the public debate on these issues.
    One of the key issues before us today involves the nuclear 
arsenal, and it is called the Reliable Replacement Warhead 
Program (RRW). While the recently announced RRW proposal would 
not--would not--have new military characteristics--and I do not 
consider it to be a new weapon--I am still seeking more 
information about this program.
    We must ask, first and foremost, do we really need a 
significant modernization of our existing nuclear capabilities, 
particularly in light of the recent plutonium ageing study 
which found that plutonium pits have a lifespan of 85 years or 
more.
    In particular, what current or planned programs would be 
foregone as a result of RRW? Will the reliability improvements 
promised by RRW allow us to significantly reduce the size of 
our nuclear arsenal? Will it require live testing of the 
nuclear component of the weapon? Will the RRW program 
ultimately reduce production costs within the nuclear weapons 
complex?
    And I would also like to know how you believe the recent 
plutonium-ageing study will impact plans for and the cost of 
the pit facility.
    These are the types of in-depth questions we will be asking 
in the days ahead.
    While a great deal of attention has been paid to RRW 
recently, Congress has made no decision to build RRW, nor will 
we make a decision in this budget year. A baseline design has 
been selected for further study. Only after detailed design 
work, and development of a cost, scope and schedule plan, will 
Congress face the decision to proceed to engineering work. 
Nonetheless, I look forward to hearing your perspective on the 
Reliable Replacement Warhead program.
    Another aspect of our strategic posture which needs 
attention are threats to our space-based assets and 
infrastructure, the recent Chinese ASAT test being the case in 
point.
    It is my understanding that you believe that the most 
important action we can take now is to expand our Space 
Situational Awareness (SSA) capabilities. I am concerned these 
activities have not received the appropriate consideration and 
resources in the past, due to emphasis on rapid deployment of 
transformational space platforms, such as Space Radar and 
Transformational Satellite (TSAT) Communications.
    General, I would be interested in your thoughts about the 
level of resources required to improve our Space Situational 
Awareness capabilities.
    I have similar concerns with regard to missile defense. I 
believe the Missile Defense Agency (MDA) has been too focused 
on research and development (R&D) activities at the expense of 
meeting our near-term requirements for our warfighters. One of 
my key priorities as chairman is to ensure that our Nation's 
warfighters receive the capabilities they need to successfully 
conduct global missile defense operations.
    In January 2002, then-Secretary of Defense Rumsfeld 
exempted the Missile Defense Agency from the traditional 
Department of Defense (DOD) requirement process, which 
effectively removed the warfighter from playing a major role in 
the development of the missile defense system.
    STRATCOM and the Missile Defense Agency have sought to 
correct this problem through the creation of the Warfighter 
Involvement Program, which I was briefed on recently.
    General Cartwright, I am interested in hearing your 
thoughts as to whether you are satisfied with the current role 
that STRATCOM and other combatant commanders are playing in 
decisions affecting the missile defense development process and 
future force structure.
    With that, General Cartwright, I would also like to thank 
you, again, for being here today, and I look forward to your 
testimony.
    Let me, right now, recognize my very good friend and 
colleague, the distinguished Ranking Member, Mr. Everett.
    Mr. Everett.

STATEMENT OF HON. TERRY EVERETT, A REPRESENTATIVE FROM ALABAMA, 
         RANKING MEMBER, STRATEGIC FORCES SUBCOMMITTEE

    Mr. Everett. Thank you very much, and I appreciate the 
earlier words from my chairman and friend.
    First and foremost, I would like to echo the chairman's 
comments and thank General Cartwright for appearing before us 
today. We have had several opportunities this year to meet with 
you, and we appreciate each time you come back.
    We also know that you have a staff of dedicated 
professional men and women working 24-7 to support STRATCOM's 
missions. We are grateful for the job that you and your staff 
perform--and what you have done for the Nation.
    As the first Marine officer to lead STRATCOM, you have 
brought your get-it-done mindset to the command and broken down 
barriers to getting the job done.
    Under your commendable leadership, I have seen STRATCOM 
transform the way it does business. Your innovations have 
brought operators, intelligence analysts and decision-makers 
together in real-time to share information.
    As the chairman remarked, this is an important hearing for 
our subcommittee. Our Nation's strategic posture serves as a 
framework for identifying the composition of our strategic 
forces and the capabilities that are needed.
    During the Cold War, our deterrent strategy and strategic 
posture was rather simple and focused, ensuring mutual shared 
destruction by possessing a survival second strike nuclear 
capability.
    The Pentagon's 2006 Quadrennial Defense Review recognized 
that today's threats are markedly different and require 
tailored deterrence, but STRATCOM must remain a strong nuclear 
deterrent.
    It also must posture itself with wide-ranging capabilities 
to address new security challenges that include non-state 
terrorism networks, which are undeterred by traditional 
strategic bombers and nuclear weapons; rogue nations like North 
Korea and Iran, who are pursuing missile and nuclear 
capabilities and proliferation; and advanced military power 
like China, who, unofficially, advocates asymmetric warfare.
    I expect you to talk about these challenges and how they 
have affected STRATCOM's missions, strategic posture and 
pursuit of new capabilities.
    There are several key issues germane to the Nation's 
strategic posture in the areas of space, missile defense and 
nuclear forces that I would like to ask you to discuss today.
    In the space arena, I am most concerned about our ability 
to protect our space assets. China's recent anti-satellite test 
was clearly a shot, in my estimation, across the bow.
    However, it is only one of several capabilities that China 
and others are developing, which pose a serious threat to U.S. 
space assets.
    To the extent you can discuss this in an open forum, I 
would appreciate your thoughts on the warfighter's space 
protection and survivability needs and how this event might 
influence the composition of our future space forces and 
architecture.
    Commanders, in previous testimonies, have stated their need 
for more missile-defense inventory to keep pace with the 
threat. Just yesterday, the Pacific Command (PACCOM) and U.S. 
forces career commanders made a similar statement.
    I would like your assessment on how well the combatant 
commanders' need for missile-defense capabilities and 
operational support is being met and whether opportunities for 
improvement exist.
    In 2006, this committee drafted and enacted, with 
bipartisan support, legislation setting forth the objectives of 
a Reliable Replacement Warhead.
    I continue to strongly support RRW and the means to 
achieving a safer, more secure, and more reliable nuclear 
weapon for our strategic forces.
    General, as the agent responsible for the operational 
readiness of our Nation's nuclear forces, please explain why 
you have greater confidence in RRW, over the long term, than 
Life Extension Programs (LEPs).
    Additionally, though it is still very early in the design 
phase, there will be future decisions on RRW--quantity, legacy, 
stockpile, life extensions, and--and delivery systems or 
modernizations. Please comment on these moving parts and 
discuss any force structure STRATCOM has.
    Last, I would like to say I would appreciate a discussion 
of gaps or shortfalls in challenges you face in the areas of 
intelligence, command, control and communications, and 
particularly cyberspace.
    STRATCOM is truly a global command with a breadth of 
missions befitting that global scope.
    General, thank you, again, for your leadership and service, 
at this time of great transition in our Nation's strategic 
forces, our position and capabilities. I look forward to your 
testimony.
    And, again, I thank our chairman for calling the hearing at 
this particular time. Thank you.
    Ms. Tauscher. I thank the ranking member.
    General Cartwright, the floor is yours. You have submitted 
significant and very comprehensive testimony way before the 
deadline. You are not meant to do that, by the way. It is meant 
to be late like everybody else's is. [Laughter.]
    But we have thoroughly reviewed it. But we are interested 
if you would like to talk to us extemporaneously, answer some 
of the questions we have put forward.
    We are happy to take your testimony. The floor is yours.

    STATEMENT OF GEN. JAMES E. CARTWRIGHT, COMMANDER, U.S. 
                       STRATEGIC COMMAND

    General Cartwright. Thank you, Madam Chairwoman and 
Congressman Everett.
    I, too, would like to acknowledge we have had a series of 
briefings back and forth at the staff levels and at the member 
levels for individual issues and for more comprehensive 
reviews. And that has been very valuable in framing this 
discussion, number one.
    And, number two, it also acknowledges the fact that things 
don't just happen in the spring, that we have engagement all 
year long, and that it is important to keep that dialogue 
going. And it is probably one of the more valuable things, 
particularly for something in the strategic side with both 
significance to the country and the regret factors if we get it 
wrong. Having a continual dialogue is critical to this 
activity.
    I will keep my comments very short here, because I would 
like to spend the time responding to you all. But just to go 
back over a few things: deterrence--and I think it has been 
framed very well by both of the opening comments--the breadth 
and the scale of the activities that have emerged since 2001 
are significant. And our ability to stay ahead of those threats 
and to actually affect and deter has been challenged.
    As was mentioned, we have moved from the old strategic 
TRIAD construct of the bombers, the submarines, and the 
Intercontinental Ballistic Missiles (ICBMs) to one that is more 
integrated and offers the country a broader range of activities 
that can deter and assure our allies, and this is critical.
    The idea of having an offensive capability, a defensive 
capability that is balanced and can be tailored within the 
region, bounded by the lessons that we have learned in the 
conventional forces on a responsive infrastructure, so that--
similar to what we experienced in the first Gulf War, when we 
built mountains that were called iron mountains--rather than 
doing management by inventory, to get to a responsive 
infrastructure that allows us to adapt, to respond to 
operational and technical surprises, and to not manage by 
inventory is critical in how we move forward in our strategic 
capabilities, because these are expensive capabilities.
    If we put them together, many times, some of the programs 
that have been brought forward in space, in the strategic side 
of our weapons and in our platforms, have oftentimes been 
guilty of being legacy before Initial Operational Capability 
(IOC). And we have got to find a way to respond to a threat 
that lives in an age that is more driven by Moore's Law than by 
the industrial constructs that we have often worked against.
    So I look forward to the opportunity to start to understand 
where we can get this leverage, where we can adapt and be 
responsive, because, quite frankly, our crystal ball is no 
better than anyone else's. We can make mistakes. We can be 
surprised. And we have got to acknowledge that fact in our 
strategy.
    And so having a balanced offense/defense infrastructure 
underpinned by command and control and intelligence, 
surveillance and reconnaissance (ISR) is critical to the 
strategy.
    The command has set up components. We did this very 
differently than the standard model. This command was about 
4,000 man years when we started this activity. We have reduced 
that significantly, moved those authorities and resources out 
to the components to allow the organization to flatten out to 
handle these global challenges. And the scale and the magnitude 
and the number of transactions that are part of an activity 
like that are significant. And to bring that into one 
headquarters would really be unwieldy for the Nation, and our 
ability to stay ahead of our adversaries would be questionable.
    This is a different construct. For instance, in my 
intelligence, surveillance and reconnaissance component, rather 
than build one from scratch, the commander of the Defense 
Intelligence Agency (DIA) is my commander of ISR; the same for 
the cyber side, we used the commander of the National Security 
Agency (NSA).
    Rather than building new constructs, build ones that can be 
joint from the start, can move to a combined or allied type of 
configuration when it is appropriate, and for which we have 
existing partnerships, centers of excellence, relations with 
industry, relations with the rest of the interagency already 
built in, so that we don't have to build those at the time of 
crisis. We grow those. We train in that configuration and it is 
essential.
    They also have the ability to define requirements, resource 
appropriate activities and manage acquisition in a way that 
this headquarters does not and cannot, and should not be tied 
down with. Okay?
    So it is a very different construct, and it is worth 
watching. It is worth understanding where value is gained in 
it, and it is worth questioning where maybe there isn't value.
    We are about two years into a three-year endeavor to put 
that together. The reason we took three years was to ensure 
that we did not disrupt families. So we stayed in the three-
year military rotation cycle.
    So the third tranche of people and resources will move this 
year to make these components hold. All of them have declared 
initial operating capability. And all of them will declare full 
operational capability probably some time toward the end of 
this year. And so they have moved along, both in their 
credibility and their capability as we have stood these 
commands up.
    On the offensive side--and I am just going to step through 
a couple of highlights on the TRIAD, just to frame some issues 
and respond quickly to a few that were highlighted in the 
comments--we look at three areas here. And Marines tend to deal 
in threes. So triangles work out for us.
    But in the offensive side of this, the nuclear-strike 
capabilities framed in the Moscow Treaty, which is drawing us 
down significantly from 2001 through 2012, with 2007, this 
year, being an evaluation half point. How are we doing? Is it 
working?
    Now, the reductions between 2000 and 2012 were to be 
commensurate with increases in capability in the other areas, 
and so what I am here to report about is how well have the 
other areas moved in response to the planned reductions? And 
where are we in that drawdown?
    And I will tell you that we are well ahead of schedule at 
the midpoint, that because of the capabilities that have been 
demonstrated on the conventional side of the house and the 
capabilities that we have demonstrated in the defensive side--
and I will talk to each one of those--we have elected to take 
additional risk and draw down quicker to free up resource, so 
that we don't have to ask for resource to do things like, 
Reliable Replacement Warhead, the Complex 2030, that is 
associated with revitalizing the national infrastructure 
associated with nuclear weapon production. Those things are 
critical in order to be able to move forward, and we have to 
pick and choose.
    What is nice here is that we have got offensive 
capabilities and defensive capabilities against which to manage 
the risk. And so I will step through those.
    On the conventional side, the fielding of what has been 
called the J-coded weapons, but the GPS-guided J-DAM, the J-
SOW, which is a glide-type weapon, and the newly-emerging two 
cruise missiles, one being sea-launched and one being air-
launched, have really given us a significant amount of 
offensive capability and precision and survivability under 
stressing threats, and otherwise, that have put us in a 
position that our conventional forces are second-to-none.
    Where we have a hole, where we have a gap is in the prompt 
global strike (PGS) side of the equation. And the chairman 
identified this in her comments. But, today, for those high-
regret factors, fleeting targets that we would want to address, 
we only have a nuclear weapon as an alternative.
    And in the diverse threats that we deal in, that is not 
necessarily appropriate across the spectrum of threat, and we 
really need to be able to provide a capability for the Nation 
below the nuclear threshold that can address these fleeting 
high-value, high-regret factor type threats.
    And we can talk more about some of the issues that emerged 
in the discussion last year--I am happy to do that--and how we 
are trying to move forward in that area, but I see that as a 
scene that is causing us undue risk.
    Now, the question is, when do you match up the threat with 
the capability? How early do you want to have it? How much of a 
deterrent value does this conventional capability bring to the 
table, so that if you bring it out earlier than the threat, it 
prevents or at least inhibits the adversary from fielding the 
threat?
    Those are the questions that ought to be asked. Again, my 
crystal ball is no better than anybody else's, but I will give 
you my best advice on that.
    I am sorry; I forgot the non-kinetic side of this on the 
offensive weapons. Suffice it to say that we have stood up a 
component with the National Security Agency. And for me, and 
for the Nation, our judgment was that the center of excellence 
for working in this environment is going to be where the Nation 
has its highest concentration of cryptologists, mathematicians 
and computing power, and that is the National Security Agency. 
It is today, and it is likely to be into the future.
    We need to encourage the national lab system to start to 
bring to the table the intellectual underpinning for the R&D 
and future concepts that are going to dominate the cyber 
environment.
    But for the Nation, the bulk of our transactions in the 
commerce side of the house and in just general business are 
occurring on these networks. Our competitive edge lives on 
these networks. This Nation's ability to compete 
internationally lives on these networks. Our military 
capabilities live on these networks.
    We must understand this environment. We must have access to 
this environment. And we must be able to protect our interests 
in this environment. It is not drastically different than the 
sea or the air or space. And we have to start to understand and 
organize ourselves to be able to operate in this environment.
    And I think that we are on a footing to move in that 
direction organizationally and with the intellectual 
underpinning. But we have got to bring a more holistic 
approach. We have got to be able to integrate ourselves with 
industry, as appropriate, with Homeland, with the Department of 
Energy (DOE), all of these organizations--Justice. All have 
equities in this area.
    The paradigms that have been established in policy and law 
are sufficient. We may want to tweak them a little bit, but 
they give us a good guidepost to go out and start understanding 
how to operate in this medium, and then understand where we 
might be challenged and come back to you all and explain that. 
And I will be happy to have a more detailed discussion, but 
that would probably have to be in a closed session, and we can 
do that at a future date.
    On the defensive side, missile defense. Missile defense has 
emerged over the past year in the relationship that has been 
established between Strategic Command and our component 
integrated missile defense with the Missile Defense Agency. And 
the test programs have moved to a much more successful footing, 
technically, because MDA has done a great job.
    Operationally, because we have integrated the warfighter 
into the test programs, started to drive the program in a 
direction that is more appropriate for fielded capabilities--in 
other words, the warfighter involved in the Warfighter 
Improvement Programs and information programs--and started to 
drive this in a direction that gives us an operational 
capability.
    This year, we are in a configuration to be able to do 
operational work. We demonstrated that through an extended 
period of time around the Fourth of July, when the North 
Koreans fired off several missiles. We stayed in an operational 
configuration for an extended period of time. The system worked 
well. We learned a lot.
    The system can be moved to an operational configuration 
anytime. It will be the end of this year before we are in a 
position where we can concurrently do R&D and development work 
along with sustained operations. And that is our goal, is to 
drive the system to that posture.
    The focus this year that we are driving MDA toward is the 
part of the capability--when we talked about this capability, 
it was against rogue states to defend the Nation, but it was 
also for forward-deployed forces, allies and friends. Forward-
deployed forces, allies and friends is the focus this year. We 
have got to start to understand how to move out.
    The good news is we have many allies who want to 
participate in this capability, who want to understand how to 
use it. The credibility against an emerging, proliferating 
threat of ballistic missiles--particularly short- and medium-
range--their quick reaction times are things that threaten 
nations.
    To give them the capacity, both to stand on their own feet 
and to integrate with us or anyone else to build layered and 
mutual defenses, is where we want to end up in this capacity. 
And driving toward that is going to be essential.
    The key R&D test points, many of them will occur this year. 
And we must watch those. We must drive those. But that is where 
the next real leverage point will come in missile defense. And 
we ought to be watching that this year.
    The other piece of defense that I think is absolutely 
critical in understanding how we can start to take the pressure 
off of a strategy that was focused purely on nuclear weapons 
for deterrence is in the counter-proliferation, non-
proliferation side of the house, also in our mission area and 
starting to work in those areas to expand our capability out.
    Part of the strategy that we are advocating at STRATCOM is 
that we generally look at conflict in five phases, zero through 
five. So--Marine math, it is really six, but zero through five.
    And the idea here is that zero and one are pre-conflict. 
And that is where you want to win. That is where you want to be 
most effective. And, heretofore, we have not done as good a job 
as we could, particularly at STRATCOM, on focusing on zero and 
one.
    The capabilities like missile defense, the capabilities 
like working in non-proliferation and counter-proliferation 
focus on phases zero and one in the conflict, trying to prevent 
it. The better you are at that, the less you need in your 
stockpile of offensive capabilities.
    They ought to reinforce each other. They ought to be able 
to be tailored for the region, so the problems that we may face 
in Southeast Asia versus Southwest Asia, North--you pick the 
region. We ought to be able to tailor a balance between offense 
and defense in the tools we use. And counter-proliferation, 
non-proliferation capabilities offer us a wide range of 
opportunities to do that. And we have got to focus in that 
area.
    The other piece here in the defensive side that I think is 
important to understand is the defense of our networks and how 
we are going to move to defend our networks and defend the 
activities on our networks, both at home and abroad.
    And, today, you know, bless it, but the Internet was really 
designed around the terminals. Everything was designed around 
protecting the terminals. We put firewalls and patches in our 
terminals, in our computers, in our servers, et cetera.
    We have got to start to look and not walk away from that, 
but we have got to start to expand out our awareness of the 
networks, so that we know what is going to attack our terminals 
before the attack occurs, so that we can configure them in a 
way that makes sense. That is a difficult technical problem, 
but not beyond the reach of this country and its intellectual 
capital. We have got to start to do that.
    The day when we can afford in American commerce to be 
attacked, shut down, wait two weeks to two months for a patch 
to arrive, and then come back online cannot be passed off to 
the consumer anymore. It is just too expensive. We have got to 
find a more responsive way to defend our networks. And we are 
working on that. We are pushing on that, both on the R&D side, 
but also on the architectural side of how we are going to do 
this.
    We are not alone in this activity. Homeland Security is our 
partner in this, Justice, the Office of the Director of 
National Intelligence (ODNI). All of us are playing together in 
this and working to understand how we can better defend the 
Nation's networks. This is a critical part. It is how we fight 
wars, but it is also how we do business as a nation. And it is 
going to be important as we move forward.
    The responsive infrastructure, which is the last leg in the 
new TRIAD. To me, this is critical. This underpins our ability 
to have a flexible and dynamic deterrent capability. Having an 
infrastructure that can respond to operational and technical 
surprise is critical.
    In the 1950's, 1960's and 1970's, when most of our nuclear 
arsenal was put together, it was put together under a constrict 
where we used inventory to manage operational and technical 
risk.
    If a weapon had a flaw that we discovered at a certain part 
in its life and we lost that entire character of weapon, we had 
to have an alternative weapon that would fit into that slot. We 
had to have a big enough inventory to go through and repair all 
of those weapons and do it in a timeline that was sufficient to 
not have a gap in our capability. So we had--had and have--very 
large inventories to manage operational and technical risk.
    We have long since learned--and I will go to a grunt 
mentality here, but--with the 155 round in artillery, that most 
of what was going on out there was associated with the 
logistics of moving huge inventories to the fight, and it 
consumed us. And we built large iron mountains to make sure we 
were ready.
    We really can't afford to do that. It reduces our 
nimbleness. It reduces our flexibility to be surprised, because 
if somebody comes up with an alternative that defeats that 
weapon, we have an iron mountain that is useless and we have a 
hole in our capability. We can't afford that.
    Precision changed that dynamic for the 155. It allowed us 
to have less rounds, but, coupled with precision, was an agile 
infrastructure, one that could be warm and building, in time, 
to affect the fight. That is critical.
    We have to think the same way about the nuclear enterprise. 
We have to have an infrastructure that is responsive to 
technical and operational surprise. We have to have a weapon 
that is safe to the user, and the handler is secure, in that--
for me, nirvana is that if the wrong person gets a hold of it, 
it is a paperweight. That is where we really want to be.
    And we have got to have reliability, because the 
reliability means that the number of weapons against any 
problem is the minimum number necessary. And the goal of the 
Administration, as stated, is the fewest weapons necessary to 
ensure national security. And to move in that direction, we 
need to move toward a safe, secure, reliable weapon and an 
infrastructure that is responsive to operational and technical 
surprise.
    RRW puts us on the path. It is not the only element. It is 
a form, fit, function replacement in that we are not changing 
any of the delivery vehicles. In fact, we are reducing 
substantially the number of delivery vehicles it goes in. It 
has the same operational characteristics, but it is safer for 
the people who have to handle it. It is secure, so that one of 
these weapons does not end up in the wrong place and used in 
the wrong way. And it is reliable, which draws down the number 
of platforms I need and the number of weapons we have to 
deliver.
    It puts us on the right path toward drawing this stockpile 
down to the minimum number necessary for national security, 
which I think is essential.
    We have two domains that we are responsible for at 
STRATCOM, the cyber domain and the space domain. We have talked 
a little bit about cyber. Let me just touch on space, and then 
I will quit. I promise.
    The space domain. We had the test with the ASAT here 
recently. That is not something that is unprecedented, in that 
the United States and, at the time, the Soviet Union both 
conducted ASAT tests.
    When we conducted those tests, we did so in a way that we 
thought was responsible, but we did create debris in the 
atmosphere when we tested. And this was back in 1985. And when 
we tested in 1985, we tested at the lower end of what is 
considered the Low Earth Orbit (LEO) belt. Even testing at the 
low end of the Low Earth Orbit belt, it took over 20 years for 
that debris to come down out of space and burn up in the 
atmosphere.
    The recent test was in the upper area of the Low Earth 
Orbit belt. That means that material, over the next 20-plus 
years, will have to migrate down through all of the--what we 
would call appropriate users of the Low Earth Orbit regime 
through that area and then down into the atmosphere. That is 
going to take a long time.
    This test occurred above the altitude at which the 
International Space Station is in orbit. It occurred above 
where most of the satellites that use the Low Earth Orbit 
regime orbit. So we are going to have to make significant 
adjustments as collision, or, as we call it, conjunction 
opportunities occur over the next 20-plus years.
    Every time you move a satellite, you are saying to a 
vendor, ``You are going to expend fuel, which reduces the life 
of a satellite and changes the investment criteria that you 
assumed when you put that satellite up.'' That is going to have 
an effect on business, on commerce. And it is going to have an 
effect on our national assets that are in Low Earth Orbit, 
because we are going to have to move to avoid this debris when 
it occurs. That is an impact on us. We would like to have not 
had that happen, but it did. And so we are where we are.
    Both the Chinese and our National Aeronautics and Space 
Administration (NASA) have programs associated with manned 
flight, today and into the future, flight that intends to go 
beyond Low Earth Orbit and out to the lunar exploration, et 
cetera. You are going to have to pass through this debris. You 
are going to have to understand the risks that you are now 
going to have to take to move through that. So that is one 
attribute associated with space that we are going to have to 
work on.
    Because of that, STRATCOM, and the military space side of 
this, is responsible for predicting where that debris will be, 
advising users of space when they are going to conflict with 
it, so if you plan a manned launch, where are the gaps, so that 
you do not run into this debris.
    We have been in what I will call a cataloguing posture in 
space for the last 50 years. We look and see what is up there, 
based on what we know was launched. Based on multiple passes 
over our radars and optical sensors, we try to get a good 
estimation of what is up there and where it is.
    Inside of geosynchronous orbit (GEO), from 23,000 miles in, 
there are approximately 40,000 pieces of debris and intended 
satellites, et cetera, that we are trying to manage on a 
regular basis.
    The timeliness of that knowledge is a catalog. We post this 
on open source, so the commercial vendors globally can use 
that. And then we give them high-resolution information for 
launch-type activities, et cetera.
    But we are reactive in this. We are going to have to change 
our posture to one of predictive, to understand where this 
debris is going to be with longer lead times, so that we can 
better plan launches, have increased safety margins for manned 
flight, which many countries are starting to move back to--not 
many, but, clearly, those involved with the International Space 
Station and those who are involved with space exploration. That 
means greater margins. We have got to reconfigure ourselves in 
order to do that.
    The expense is not that--I never say this the right way--
the expense is there. We are working our way through this. But, 
first, we have got to change the mindset in the organizational 
construct and put us in a position where we are thinking more 
about capabilities that are predictive in nature, and move 
ourselves to the computing power and the sensor integration 
that will allow us to do that.
    We started that about three years ago. We are well on our 
way to that. Those are funded programs, and I think they are in 
good shape.
    But I would be happy to talk in more depth on those. 
Probably have to move to closed session to get to technical 
detail, but general capability, we can do.
    And I will leave it at that, Madam Chairwoman.
    [The prepared statement of General Cartwright can be found 
in the Appendix on page 39.]
    Ms. Tauscher. Well, General Cartwright, thank you for a 
thorough vetting of many of the questions that I think I asked 
and the ranking member asked in our opening statements. And I 
think this is a great compliment to your significant, and, as I 
said, very comprehensive statement.
    I am going to ask a couple of questions and turn to the 
ranking member.
    We have got members here that have questions, and we are 
going to use the five-minute rule.
    I just, very quickly, wanted to talk to you, get back to 
something you talked about, because RRW has been in the news 
recently. And I just really want to have you state for the 
record almost unambiguously, once again, whether RRW will 
deliver any new military capabilities?
    And, forgive me, General, the reason I bring it up is 
because I want to note for the record that the last time the 
Administration brought a proposal forward for a new nuclear 
weapons capability--the redundantly named, Robust Nuclear 
Penetrator--I helped kill it. So I wanted to be sure that--I 
just wanted to get your view. Is RRW a new weapon?
    General Cartwright. It is a component. When we look at a 
weapon, it is a combination of the delivery vehicle, the 
systems that navigate to take you from Point A to Point B, and 
then put you in a position to have the effect that was 
desired--in this case, a nuclear weapon.
    RRW is a component of that--with no different 
characteristics than the weapons that we have today, other than 
it is safer, more secure, and more reliable. But from a 
standpoint of weapon effect, from a standpoint of the delivery 
vehicle and its intended use, there is no change.
    Ms. Tauscher. Same yield?
    General Cartwright. Within percentages, one or two percent. 
In other words--I am smiling, because I am trying to make sure 
I don't go outside the box of classification here--but the way 
we are getting the capability and keeping the same weapons 
effect and yet having safety improved and reliability improved 
is that we are allowing the designers to reduce, when 
appropriate, the size and the yield--and we are talking just in 
very small numbers, single-digit-type numbers--in order to 
optimize for larger margins to assure that we don't need to 
test, to assure that we can put additional safety and security 
measures inside.
    Some of that volume is compensated by the fact that we have 
moved from tube technology to microcircuits, so we can gain 
some advantage there. But, where necessary, we have allowed 
them to reshape components--including the physics packages, so 
to speak--to fit into this volume, optimizing for no testing, 
higher security, higher safety, higher reliability.
    Ms. Tauscher. I am going to suspend my questions for the 
time being. I am going to yield five minutes, or as much time 
as he might use, to the Ranking Member, Mr. Everett.
    Mr. Everett. Thank you, Chairman. I am going to basically 
do the same thing. I just have a couple of questions.
    Let me talk a bit about space. We have had a lot of 
hearings, and you referred to the use of space in our economy. 
I think last hearing we had, globally, there was about a $90-
billion industry. Don't remember, but I think it was growing 
somewhere in the rate of 16 percent a year.
    General Cartwright. Yes, sir.
    Mr. Everett. That will continue. We, on this committee, and 
most of the Congress, recognizes that, while we have 
redundancy, it would be a severe loss to our military to lose 
our space systems.
    In that light, let me mention that there are a number of 
ways to achieve greater survivability--protection of our space 
assets, hardening on-orbit spares, redundancy, distributed 
architectures, alternatives such as unmanned aerial vehicles 
(UAVs), active prevention and denial, non-material solutions 
and rapid replenishment.
    Along those lines, in your opinion, what is the military 
utility for operation response to space?
    General Cartwright. I think you have characterized this 
very well, Congressman Everett.
    There is more than one way to skin this cat. But what we 
have to start to understand in the larger construct here is can 
we change the risk equation from the standpoint of we have, in 
many sectors in space, moved in a direction that it is 
expensive to go to space, so we increase the likelihood of 
success, so we build a bigger motor, more reliable motor, more 
redundant systems.
    We make the payload bigger, because, since it is going to 
cost so much to get there, we gotta stay there a long time. So 
we put additional redundancy, which turns to weight, which 
means the motor has to be bigger. And we work ourselves into a 
spiral that the risk equation here is zero tolerance for 
failure, which puts us in a high-cost environment.
    Some systems need to be exquisite. They need to be cutting 
edge, and they need to have those characteristics, but not all. 
And we can get resilience, and we can get survivability with a 
very different risk equation and the combination of both 
commercial assets, military assets, lower-tech assets, 
particularly for the warfighter. Many times, we do not need the 
level of technology that is necessary for, say, technical 
intelligence.
    So getting a balance in space is critical. Having it be 
responsive--I will express that I have concerns when people put 
a label on a capability like responsive space, because then it 
becomes a buzz word and everybody defines their capability 
based on some metric of responsive. Responsive to do what-is-
what is important for me to understand and for the command to 
understand.
    We can be responsive with on-orbit assets and tailor them 
to problems. We have done that for many years, and it just 
takes a software reprogramming, a different orbit that can be 
adjusted. Many things can be responded with the assets that we 
have today. And we do that very well between ODNI, STRATCOM, 
and DOD.
    Some assets, we could change the risk equation and build 
much cheaper capabilities that don't last any longer, but can 
augment or replace or replenish, based on the scenario, 
particularly with communications.
    When you know that you are going to need much greater 
bandwidth in a particular region, surging to that, rather than 
putting something up there that would otherwise be an overage 
of capability for, say, an extended five- to ten-year period, 
may make a lot more sense.
    It also allows us to start to broaden the industrial base 
out and keep it warm, instead of building something, waiting 10 
years and then trying to re-gather the people and rebuild 
again. So we have got to take all of the pieces that have been 
laid out here.
    Responsive, to me, is using those on-orbit assets in ways 
that we maybe didn't design them, but could be done. Next is 
having a warm industrial base that can allow us to respond 
quickly to either surge, replenish or replace, to have the 
capability in that warm industrial base, then, and the 
intellectual capital to see a new problem and respond to it. I 
mean, between those three things, that is what I would look for 
in the definition of responsive for space.
    We are trying to move in that direction with a responsive 
space capability. I am focused on the capability. Others may be 
focused on defining it as an acquisition practice, et cetera. 
But, for me, it is delivering capability and understanding what 
is driving the timelines and not overreacting in those.
    I mean, we could buy responsive with large numbers of 
assets in the barn, so to speak, assets stored on orbit, et 
cetera. That, to me, at this stage in the game, is not 
necessary.
    What we have got to understand is what is it we are trying 
to do and what is the timeline for response when we are 
surprised, technically or operationally.
    Is that----
    Mr. Everett. That is very consistent with what you said in 
Omaha last October, and I appreciate that.
    Mr. Reyes and I had the opportunity to be at Kirkland when 
the 14th Air Force was stood up.
    And I have one other question. And I will admit to some 
personal feelings about this, but, last year, this committee, 
as well as the Intel Committee, had information or had in our 
bill that the Air Force could not close down the U2 program 
before the Secretary of Defense certified to the appropriate 
committees that there would be no loss of ISR.
    The Air Force plans again this year to close down the U2. I 
am not sure that, at this point in time, we have--and Golden 
Hawk is what we are talking about. I don't think that we yet 
have the sensors that we need that would replace the U2. And I 
would just ask you if you have an opinion on that.
    General Cartwright. Sir----
    Mr. Everett. Air Force, Marine----
    General Cartwright. The U2 has been part of our stable of 
capabilities for a lot of years and has been an incredibly 
capable asset. And it has a long legacy. And it has been 
adapted over the years. The engines have been upgraded. The 
avionics have been upgraded to be as relevant as they can be. 
And so it has been a workhorse.
    Today, its primary limitation--and this is not pejorative--
but its primary limitation is the fact that it has a pilot. 
That pilot is generally good for X number of hours. And that is 
what limits the duration on station.
    It also is challenged in being able to enter into a threat 
environment. It is not survivable in a high-threat environment. 
But we have a substantial amount of activity that does not 
occur in high-threat environments.
    The Global Hawk is to focus on those areas that are not 
high threat, but allows us the routine sorties today that we 
are flying with Global Hawk in theater, generally about 22-1/2 
hours on station. That is a significantly longer period of it. 
So the Global Hawk offers us a movement forward in availability 
of sensors.
    The Global Hawk has had its challenges in production, and I 
won't go technically into those. I think having the Air Force 
in here might allow you to do that in more detail, but we are 
working through those.
    The objective, here, capability is to move to a more 
persistent platform, one that is able to stay on station 
longer, give us the sensor phenomenologies to be able to aid 
the warfighter in real-time and give him or her the information 
they need in order to prosecute.
    The trade between Global Hawk and U2 is one that we have 
got to manage. The Global Hawk has to demonstrate its 
capability, both in the upgrades and the numbers, before we 
want to let go of the U2. How much risk we are willing to take 
is the balancing act that the Air Force is trying to work 
through for the Department.
    For STRATCOM, I cannot afford a gap in capability. And that 
is the way we responded to the query from last year is we can't 
afford the gap in capability.
    Having said that, there are certain theaters in which the 
U2 is extremely valuable because of its sensor package. So as 
we draw it down, we have to retain, particularly in those 
theaters, that capability until we are absolutely certain that 
we have a replacement that is on station and ready to replace 
it.
    There are other places where we use U2s where we can afford 
to take a little risk. So prioritizing that is what we did from 
a command position to the Air Force. We listed the highest 
priorities to the lowest priorities and where we could afford 
to take risk as a Nation in the transition between Global Hawk 
and U2. And that should help inform the debate as we move 
forward in this area.
    Mr. Everett. Well, I thank you.
    Of course, this committee and the Intel Committee's only 
position was that we would be certified that there was no loss 
to ISR to the warfigher.
    Thank you, Madam Chairman.
    Ms. Tauscher. You are welcome, Mr. Everett.
    I am happy to yield five minutes, now, to Mr. Larsen.
    Mr. Larsen. Thank you, Madam Chairman.
    And, General Cartwright, five minutes applies to my 
questions and your answers in total, the way the rules run. So 
I am going to be quick, and----
    General Cartwright. I will try to be the same.
    Mr. Larsen [continuing]. I would like you to be quick as 
well.
    About a month ago, I met with a People's Liberation Army 
(PLA) general who is equivalent of the Vice Chairman of the 
Joint Chiefs of Staff (VCJCS). He was in D.C., met with a few 
folks. We had a conversation about the Chinese ASAT test in 
which we brought up the issue of debris, and he characterized 
the issue of debris as a baseless concern.
    We did our part to enlighten him on what we thought was a 
good foundation for having that concern. It wasn't a very 
pleasant conversation, but we got through it and only would 
suggest that if you can find that opportunity to explain, 
through your appropriate chain of command, to the Chinese how 
you described it to us, it might enlighten them further on what 
the problem is--one part of the problem--with their ASAT tests.
    Also, I have some questions on China, but I submitted them 
for the record to Secretary Gates and General Pace when they 
were before us. You probably will be getting copies of those 
questions to participate in developing those answers.
    But along that line, one question I think is important for 
us to talk about has to do with Space Situational Awareness. 
One of the problems we have been struggling with in the 
committee has been the investment into transformational 
satellite systems, as it has been called, the amount of money 
we have invested. I think Dr. Sega has done a good job 
explaining how they are trying to get that under control, but 
whether or not we are investing in the right thing.
    And so I would like to ask you if we are investing enough 
in Space Situational Awareness capabilities that are needed to 
deter, defend and recover from possible threats against our 
space assets and their related ground infrastructures? And, if 
not, what are the greatest needs in that area?
    General Cartwright. Different approaches to Space 
Situational Awareness. The first is to be able to survey space 
and know what is there and know it with some accuracy, so that 
you can have access and passage in a safe way for any who want 
it. And that is the first capability.
    And what we have done is net together, initially, 
terrestrial capabilities, radars, et cetera. And, now, we are 
starting to move toward netting together our space sensors, so 
that they are integrated with the ground and we are integrated 
in a way that gives us a higher degree of fidelity and a higher 
degree of reliability that we are actually seeing everything 
that is out there that we need to see.
    Mr. Larsen. In your opinion, is the technology to do that 
mature enough to do this and do it right once?
    General Cartwright. Yes, from the standpoint of taking 
advantage of everything that we have and everything that is a 
program of record today that is funded.
    We have a couple of capabilities that we are planning over 
the next few years to launch that will fill in gaps of systems 
that have lapsed. But given that, yes, I believe that we have 
what we need in those areas.
    What we have to do now is get ourselves organized, so that 
the information flow and the uplinks and downlinks in the 
ground infrastructure is netted together in such a way as to 
have the information processed and provided, so that it can be 
responded to inside the decision cycle of having to act. Okay?
    And I believe that we are on the path to do that, and that 
we have the resources necessary to do that in the aggregate. 
There may be disconnects--either programs that have technical 
issues, et cetera--but we are down to a point where we are 
close. That is the first piece.
    The second piece that you alluded to was the 
phenomenologies to be able to utilize space as we utilize other 
areas for sensor knowledge understanding awareness. And the 
Department has been a large advocate of radar, because it 
washes away the night, and it washes away bad weather, to a 
large extent. And so it gives us eyes and ears when nighttime 
comes and when we have bad weather, which is important to us to 
be able to dictate the tempo of any conflict. That is why radar 
is so critical.
    The question, now, are there more and more capabilities 
being associated with radar, as we move to the future. How many 
of those are appropriate from space? How many of those are 
appropriate from air and terrestrial sensors? Air and 
terrestrial being a little easier to adapt, change, fix, et 
cetera.
    What we are trying to understand, and what the command is 
focused on is not having to look at the problem as if you are a 
space person. If I ask a space person to solve a problem, I get 
a space answer. If I ask an air person to solve it, I get an 
air answer.
    We are trying to sit in a position where we can look at the 
integration of air, space and terrestrial, understand the 
balance, not go too heavy in any one area, and then integrate 
them in a way that is appropriate. I am not convinced yet that 
we have that framed correctly for Space Radar.
    Mr. Larsen. Okay. And I would say if you ask Congress, you 
will get a congressional answer, which may not be, sometimes, 
helpful, but if you need help on that----
    So just in conclusion here, what I hear you saying is that 
not that we are radar heavy, but that the future allows us to 
have capability that may not just be focused on radar. And we 
may be able to do that in a leaner way with pretty good 
effectiveness.
    General Cartwright. Integrating between the mediums and 
between the Intelligence Services (INTS).
    Mr. Larsen. So that you have a better way of approaching 
this problem.
    Thanks.
    Thank you, Madam Chair.
    Ms. Tauscher. Mr. Larsen, do you want to submit a form of 
your correspondence to General Pace and Secretary Gates to 
General Cartwright for questions for the record?
    Mr. Larsen. Yes, I would actually like to do that, yes, if 
I could.
    Ms. Tauscher. So ordered.
    Mr. Larsen. Thank you.
    Ms. Tauscher. Thank you very much.
    I am happy to yield five minutes to the distinguished 
gentleman from Texas, Mr. Thornberry.
    Mr. Thornberry. Thank you, Madam Chair.
    General, you have been quoted in some publications recently 
as being somewhat concerned, as I read it, about the 
fragmentary nature of our cyber efforts as a Government. Can 
you briefly outline for us what your concerns are, the kinds of 
things you think we ought to be thinking about?
    General Cartwright. My concern on the cyber side is really 
on an organizational level. And it was the fragmentation of 
defense organizations responsible for defending networks, 
organizations responding for operating and doing what we call 
reconnaissance on those networks, setting the--being in the 
cyber environment. They were separated by, organizationally, 
not a common commander.
    And so what we were advocating for was, as the mission came 
to STRATCOM, part of what we needed to do was get unity of 
command, unity of effort, so that we could get balance of 
offense and defense, understand that balance and articulate it 
to the Congress, because, right now, one group comes to you and 
asks about defensive capabilities. Another group comes in at a 
different area and talks about offensive capabilities. And you 
don't know whether or not this has been integrated. That is 
really the heart of the issue for me.
    I believe, one, having the mission come to STRATCOM. Two, 
allowing us to put a head, which, in our framework, is--the 
National Security Agency is the senior head. We have Defense 
Information Services Agency (DISA), which worries about day-in, 
day-out running your service, running your backbone, but, also, 
the defensive nature, integrating the two of them together, so 
that I have got one commander who I turn to, who deconflicts.
    Now, the next piece that we need to do is do that for the 
Government. I mean, you have to have somebody that knows what 
is going on out there to deconflict.
    So those are my concerns, sir.
    Mr. Thornberry. Well, I am interested in working further 
with you on it, because I agree. I think we do need a 
government-wide approach to it.
    I also want to ask about RRW and responsive infrastructure. 
My impression is--and from listening to you again today--is 
that the two things have to go together.
    And my further impression is that the Department of 
Defense--and primarily you, I guess--are going to have to be 
much more involved in making sure that responsive 
infrastructure is really there, rather than--as it has been in 
the past, in my view--Department of Defense turning to the 
National Nuclear Security Administration (NNSA) and saying, 
``Produce what I want, and I don't care how you do it.''
    To have responsive infrastructure, you are going to have to 
be more involved in monitoring the--not day to day, 
necessarily, but making sure, year by year, that that 
infrastructure is responsive and not being allowed to 
deteriorate. Am I on the right track with that?
    General Cartwright. Yes, sir, you are. We had to do that--
and I will go back to the 155 round just because I am 
comfortable being a grunt.
    But, you know, we had to enter into a partnership with 
industry, because we had to set certain criteria about a warm 
base, make sure that the lines for various munitions stayed 
warm and that the expertise was there to respond, if we needed 
it, enter into a partnership that understood the cost of doing 
that to industry, et cetera. But you could not just sit back 
and say, ``I want.'' It really demanded a partnership. And this 
demands a partnership.
    And I am hopeful, because we have set some precedents here. 
We took risk on the operational side to draw down, in order to 
free resource for the DOE to be able to move aggressively in 
and start to move on RRW, but also on their Complex 2030 
program.
    It has to be a trade back and forth. And we have got to 
understand each other's risk when we do that. But it has to be 
done in partnership. You are exactly right.
    Mr. Thornberry. Let me just ask this: If you are watching 
and you see either the RRW delayed or the Complex 2030 not 
happening like it should, seems to me your response, based on 
what you have said, is, ``Okay, you have to slow down 
dismantlements,'' because, now, we are relying on numbers to 
protect us, and if we can't have the RRW move ahead on schedule 
and the responsive infrastructure on schedule, our country's 
only option is to keep thousands of nuclear warheads.
    Am I on the right track with that?
    General Cartwright. I think you are exactly right. The only 
thing I would add to it is that there is at least a partial 
ability to look at other parts of the TRIAD and say maybe they 
have advanced in a way that allows you to continue to reduce.
    But, at the end of the day, we will have to stay with an 
inventory management scheme until we are absolutely convinced 
that we have something to replace it. The regret factors for 
the Nation, in this area, are too high to let go of the trapeze 
before you know you have got something to grab onto.
    Mr. Thornberry. Thank you.
    Ms. Tauscher. If the gentleman--your time is up, but if you 
will yield, because I think there is a corollary to that, too, 
that is interesting, and before we go to Mr. Spratt, the other 
piece of it is we are still spending enormous amounts of money 
on LEP programs and other things.
    So, I mean, I am not an advocate of RRW, but I think that 
there is another piece to this, which is instead of reducing 
weapons and doing other things, we are still extending the life 
of these weapons and spending an enormous amount of money to do 
that. And the question of a responsive infrastructure and the 
right size of the complex and all that, that question is left 
out there, too, if we don't make some of these decisions. I 
agree with you.
    Thank you, Mr. Thornberry.
    I am happy to yield five minutes to the chairman of the 
Budget Committee----
    Mr. Spratt. General Cartwright, thank you for your 
excellent testimony, as always, your lucid explanations.
    I have, however, some clarifications I would like to get 
from your written statement, particularly with respect to RRW.
    First of all, you have chosen Livermore as the primary 
entity to care for the RRW program. Could you give us, quickly, 
just a timeline that you expect for bringing the first RRW 
warhead to completion for substitution?
    General Cartwright. Yes, sir. There are several disciplined 
acquisition points at which we would move through, stop, move 
forward for either a technical review or a policy or oversight 
review. And the one that we have just finished is kind of what 
we would call preliminary design. So we have stopped at that 
point.
    We have had a certain set of criteria that are associated 
with preliminary design. We have looked at those. We have made 
a down select, understood the attributes associated with that 
down select.
    The next area we enter into is a detailed design activity 
focused on what we think is the most promising design. At the 
end of that, we would come back and ask for permission to enter 
into development, and then on into fielding.
    Objectively, what we are trying to accomplish here is that 
the Moscow Treaty put us on a drawdown through 2012. At 2012, 
we would like to be in a position where we have high confidence 
that we have a design and a manufacturing capability that would 
allow us to start to replace, to move into the trade between 
draw down and demilitarization of weapons----
    Mr. Spratt. Does that mean that you can link or associate 
the significant drawdown with a replacement of the RRW, that 
the two could be packaged more or less together?
    General Cartwright. Sir, yes, sir.
    Mr. Spratt. Is that part of the strategy of trying to 
advance the idea of this----
    General Cartwright. It has to be from the standpoint that 
the design has to give us a capability to handle operational 
and technical surprise, absent doing it with inventory. In 
other words, modularity, interoperability, a responsive, 
trained workforce that can respond to a surprise, rather than 
an inventory that is so diverse and so large that you don't 
worry about being surprised. You just bring in more inventory.
    Mr. Spratt. Does the RRW anticipate the construction of a 
new Re-entry Vehicle (RV)?
    General Cartwright. It does not. It is form, fit, function 
into the existing systems.
    Mr. Spratt. Now, you say here, on page six of your 
testimony, ``We lack the capability to respond globally to 
globally-disbursed or fleeting threats.''
    Then, on the next page, you say, ``The new TRIAD, when 
mature, will provide improved agility and flexibility in 
dealing with a wider range of contingencies.''
    It gives me a little pause, because I read into that the 
possibility you are saying that the new warhead would have 
tactical utility, that we are resurrecting an old idea that we 
might be using nuclear warheads early in a threat, as opposed 
to the ultimate strategic reserve to respond to a threat.
    General Cartwright. That was not my intent, sir. If I have 
stated it unclearly, the intent, here, is that the mature TRIAD 
would have a conventional alternative that would allow us to 
address targets more appropriate for conventional munitions 
than nuclear, A.
    B, for those tactical things where we used to have all the 
way down to artillery, to now be in a position where we have 
the new J-coded weapons, we have both the cruise-missile 
variant and the gravity variants and the glide variants, along 
with a prompt global strike, we have more appropriate responses 
for--when we have a mature TRIAD--for threats that are more 
appropriately addressed by conventional munitions and effects.
    May not have been able to do that in the past, because our 
conventional capabilities weren't----
    Mr. Spratt. But you are talking about a conventional 
alternative to round out the TRIAD for----
    General Cartwright. Yes, sir.
    Mr. Spratt [continuing]. Prompt and fleeting threats, not a 
nuclear alternative.
    General Cartwright. That is correct.
    Mr. Spratt. Okay. Still got time?
    Ms. Tauscher. Yes, sir.
    Mr. Spratt. Page 10, there was an intriguing statement at 
the top of the page. Maybe I missed something in the story 
about it, but on July the 4th, 2006, the North Koreans fired 
several missile launches.
    You state there, rather briefly, that we had our nuclear--
our ballistic-missile defense system up and in operation. Can 
you shed some light on exactly what it was doing and what we 
learned from that experience?
    General Cartwright. Without going into the operational 
details, we moved to an operational footing, brought the 
sensors to command and control and the ground-based 
interceptors (GBIs) online in a posture where, if necessary, we 
could have responded.
    We had ambiguous activities going on at that time. We had 
several missiles that were being poised to be launched, 
including one that had the potential to be intercontinental in 
range. And so we took that opportunity to bring the system out 
of R&D configuration into an operational configuration.
    We held it in that operational configuration for an 
extended period of time, which allowed us, on the warfighter 
side of the equation, to validate the training that we had been 
doing, the certification of crews, certification of equipment, 
run that equipment for an extended period of time in 
operational conditions.
    We learned a significant amount of information, mostly 
associated with our ability to do command and control of an 
operational missile defense system, because, understand, this 
system--part of the challenge here is--in the command-and-
control side--is U.S. Northern Command (USNORTHCOM) has 
responsibility for defending the continental United States.
    U.S. Pacific Command has responsibility in the Pacific 
Theater. The United States European Command (USEUCOM) has 
responsibility for Europe, but also Russia, as the new 
construct has been put together. This threat covered all of 
those simultaneously.
    So managing the defense, we learned a lot about how to net 
these organizations together, work with sensors that are spread 
across all of those regions, but keep them on a common footing, 
and how to manage day-in and day-out the routine maintenance 
that must occur with any machine over an extended period of 
time and not have a gap in our coverage.
    Much of that work was done at our integrated missile 
defense headquarters out at Schriever Air Force Base in 
standing them up and then confirming the capabilities, but 
there are nodes all over the world that have to be netted 
together to make this work. This was our opportunity to put 
that together, demonstrate that it could.
    The good news here is that the mechanical side of this 
worked very well. The command-and-control side, we made some 
adjustments, but it worked very well.
    We had allies looking over our shoulder the whole time. 
They were very compelled by what they saw, as you can see in 
the response by the Japanese and how they have started to move 
to integrate and build a defensive capability.
    And, at the end of the day, what we were looking for was a 
credible deterrent capability that offered an alternative to an 
offensive-only capability, offered timelines that were 
consistent with the threat that was out there and capabilities 
that were not shield, but certainly were enough to put doubt in 
your adversary's mind about the veracity of whether or not they 
could act inside your timelines and inside your capability to 
respond. And, to me, that is what we learned over the July 4th 
activity.
    Mr. Spratt. Thank you very much.
    General Cartwright. Yes, sir.
    Ms. Tauscher. Thank you, Mr. Spratt.
    I am happy to yield five minutes to the gentleman from 
Arizona, Mr. Franks.
    Mr. Franks. Well, thank you, Madam Chair.
    Ms. Tauscher. You are welcome.
    Mr. Franks. And, General, thank you for being on our side. 
You know, your acumen and your ability is just so obvious to 
all of us, and we appreciate you being such an advocate for 
human freedom.
    You know, I was struck by a couple of your phrases that I 
suppose all good soldiers use to emphasize the graveness of the 
situation by sort of a subtle understatement.
    You used the term, ``conjunction opportunities,'' related 
to the space debris from the ASAT test from China. And, of 
course, that paints the picture in my mind of something 
slamming into the space station at high velocity and knocking 
out the command and control and seeing it plummeting to the 
Earth. But the subtle understatement there is still 
appreciated.
    You also used the ``high-regret factor'' when we are 
talking about missile defense. And I think that is a concept 
that needs to be emphasized to a tremendous degree, because if, 
in fact, there ever comes a time when missile defense becomes 
critical to us, that high-regret factor could be something that 
would be clear in all of our minds.
    General Cartwright. Yes, sir.
    Mr. Franks. Unfortunately, it seemed like about half the 
population thinks we have a full-blown system that is 
completely operational. And while our systems are real, we are 
not there yet. And the other half of the population thinks that 
that is just something that is, you know, just pie charts and 
something that we hope for.
    But I think the North Korean incident probably demonstrated 
the operational availability of the system more than anything, 
including in the Aegis system and the Ground-Based Midcourse 
Defense (GMD).
    One of the things I am concerned about is related to--you 
know, the operational commanders are doing a good job saying 
what is necessary and what is needed, and the Missile Defense 
Agency is doing a good job in making sure that we have 
interceptors. But the services haven't all taken ownership of 
those yet. And can you tell me what the timeline--is there 
another dynamics there that we are not aware of?
    General Cartwright. It was alluded to earlier that we used 
a different requirement, resourcing, and acquisition strategy 
to field this capability.
    Missile defense, historically, has been more focused, for 
this Nation, on aircraft that might fire a missile--cruise 
missile, et cetera--and on short-range type activities. And 
even in the short-range ballistic, we really have had a 
capability, but nascent, at best.
    The dynamics, since the early 1990's, when we had the fall 
of the wall, but moved out of the Cold War, ballistic missiles 
have become a weapon of choice in proliferation, because they 
can be fleeting. In other words, they can be moved to 
someplace. So they are hard to track. Their time of action is 
very, very quick. And, until you make the decision to use them, 
you are not flying every day, et cetera, and expending money. 
So they have become something that has proliferated.
    And so the threat associated with them has grown. And we 
watched this in the first Gulf War, moving into the second and 
really into the age that we are in today.
    What we are trying to understand, as we do missile defense, 
is, one, what is the right construct, and not be bounded by 
service lines or acquisition lines or requirements lines that 
have grown up in--not stovepipes--let's call them ``vertical 
cylinders of excellence'', okay--but be able to move across 
these and find excellence and find leverage, and, when we do, 
to build the compelling argument that this might be a better 
way to look at the problem.
    And once we build that, then to try to say, ``In this 
vertical structure, let's optimize Aegis.''
    Mr. Franks. General, my time is about gone here.
    General Cartwright. I am sorry.
    Mr. Franks. I wanted one other question on the record here.
    General Cartwright. Please go ahead.
    Mr. Franks. Yesterday, at PACCOM, I had asked General Bell 
how important ballistic missile defense (BMD) was to our 
warfighters. And he responded, ``I have got 800 of these 
missiles pointed at U.S. troops right now in South Korea. So I 
would support vigorously a robust approach to theater ballistic 
missile defense, intercontinental ballistic missile defense. It 
is a very important part of the total approach to this very 
serious problem.''
    And I would sure like to get you on the record in about 
those same kind of terms.
    General Cartwright. You can use that quote for me.
    But the idea here is that we don't want to build a missile-
defense system for short range, a different system for cruise 
missiles, a different one for intercontinental. We have got to 
find a way to leverage the sensors across these mission areas, 
across these vertical organizations in a way that makes sense. 
And the only way to do that is to take a look at it, find the 
value and then advocate, ``Army, will you take this? Air 
Force?'' You have to have one of those services come on board 
at some point.
    Some of that is very obvious. Aegis is a straightforward 
mix. Once we build it, the Navy assumes it. The land-based 
missiles have been pretty straightforward.
    It is the sensors where we are trying to understand who 
ought to be responsible. If the sensor is on the water, but 
really serves for space or for air, who should run it and how 
should we manage it? And we are working our way through that. 
We have got a good forum with the warfighters to do it. We are 
not at a point where that is critical yet on these new sensors, 
but discovery is part of this activity in understanding it.
    But, at the end of the day, the Nation does not want four 
or five different ways to address these problems. You really 
want a combined way.
    Mr. Franks. Thank you, General.
    Thank you, Madam Chair.
    Ms. Tauscher. You are welcome, Mr. Franks.
    I am happy to yield to the Chairman of the Intelligence 
Committee, Mr. Reyes.
    Mr. Reyes. Thank you, Madam Chair.
    General, good to see you again.
    I have two different tracks that I want to ask you a couple 
of questions about. The first one kind of builds on the 
questions that you were just asked, because, in the past, 
combatant commanders have expressed their concerns that they do 
not have sufficient numbers of Patriot PAC-3 missiles, 
depending on the location, to deal with missile threats that 
they are facing and their troops are facing.
    So my questions are, are you satisfied that the current 
numbers of Patriot PAC-3 missiles in inventory are sufficient?
    General Cartwright. If PAC-3 is the only defense, we don't 
have enough of them. What we are trying to understand, though, 
is, in combination with the emerging Terminal High Altitude 
Area Defense (THAAD) system----
    Mr. Reyes. Right.
    General Cartwright [continuing]. In combination with----
    Mr. Reyes. But it will be a while before the THAAD 
inventory----
    General Cartwright. The line is hot, and we are producing. 
We have a warm industrial base. We are upgrading those 
missiles, based on new technology and new threat, and I believe 
that we are in a good position.
    If we had to freeze in time and we didn't have any of these 
other systems, you would need more PAC-3--commanders would ask 
you for more PAC-3.
    Mr. Reyes. Right.
    General Cartwright. But given that we are starting to bring 
on Standard Missile-3 (SM-3) from--the naval variance of these 
capabilities--that THAAD has had a very good test record now, 
as we have--we have put it back on the--we are trying to 
understand--keep that line warm and producing, but understand 
what the right balance is going to be for the Nation as we 
move----
    Mr. Reyes. Combination of THAAD and PAC----
    General Cartwright. THAAD, PAC-3, the sea-based 
capabilities.
    Mr. Reyes. Is that a conversation that is ongoing----
    General Cartwright. Yes.
    Mr. Reyes [continuing]. Right now, from your perspective, 
with the Secretary of Defense and others?
    General Cartwright. It is a conversation that is being 
informed by tabletop technical war games within the Department, 
external to the Department and the Government and external with 
our allies, because they have a big stake in this.
    And so we have a series of war games and tabletop exercises 
that we run to understand these balances and trades, because it 
is not just our American systems, really. We are looking at 
systems associated with NATO, associated with other alliances 
to augment this. And they should inform our investment 
decisions also.
    Mr. Reyes. There are areas in different parts of the world 
where, basically, the Patriot is the only protection they have, 
thinking about Japan----
    General Cartwright. Right.
    Mr. Reyes [continuing]. Some areas in the Middle East.
    Some of the NATO countries, as they have had discussions 
with us, feel that that is their only protection, at this 
point, against the Iranian missiles.
    General Cartwright. Right.
    Mr. Reyes. Would you agree with all that?
    General Cartwright. There are many countries that have 
fielded PAC-3 or PAC-2 as their primary defensive capabilities. 
Others have gone with indigenous systems.
    There is great value in having some diversity, in having 
some of these indigenous systems, but PAC-3 is the--kind of the 
weapon of choice.
    Mr. Reyes. Kind of a staple.
    General Cartwright. It really is.
    Mr. Reyes. Just switching to space for a moment, we know 
that there are multiple ways to achieve greater survivability 
and protection of our space assets to include hardening, on-
orbit spares, redundancy, alternatives, such as UAVs and other 
such systems.
    Can you tell me what the Department's overall strategy for 
assuring support from space systems--what is the strategy for 
that?
    General Cartwright. I think all of the things that you just 
highlighted in the diversity of the approaches to space are 
key.
    In addition to that, trying to now net together for the 
U.S. all of those who have utility in space--commercial, other 
agencies within the Government, the intelligence community, et 
cetera. We have, at STRATCOM, endeavored to bring those 
communities together in a common room, keep each other informed 
of intelligence, of threats. We take responsibility for the 
defensive side to make sure people understand what is out 
there, but netting together.
    Now, what is different from when I talked to you last year 
is that the DNI and DOD's space operations centers are 
virtually netted together. They have common deputy commanders. 
So, in other words, we have a military person that is in both 
places in common.
    So I have a unity of command, quick information whenever 
anything is conjunctioned in nature or other types of threats. 
And we are developing that with the commercial sector. We have 
got to move that to an international footing, and that is the 
next step.
    Mr. Reyes. All right. Thank you, General.
    Thank you, Madam Chair.
    Ms. Tauscher. Mr. Cartwright, I also want to pursue some 
questions on missile defense. And, you know, last year the 
committee expressed concern that MDA's program had been very 
focused on what we consider to be long-term R&D efforts, such 
as Kinetic Energy Interceptor (KEI), at the expense of nearer-
term capabilities like THAAD and Aegis BMD.
    And I am impressed, I did see in Colorado Springs your 
Warfighter Involvement Program. And I think that there is a lot 
that you have done to integrate with the other combatant 
commanders the sense that this is not a system looking for a 
buyer.
    We also have, besides the warfighter, we have our allies, 
and, obviously, our homeland are the most important things for 
us to protect. We have Japan, obviously, working with us on--we 
have got PAC-3s and other situations.
    What are we doing to integrate the allied situation to make 
sure that we have not just ourselves, and what are we doing to, 
once again, make sure that people understand that this is a 
defensive weapons system?
    General Cartwright. A couple of activities that are going 
on. We alluded to the exercise programs and the tabletop work. 
That helps inform people of the capabilities. And, oftentimes, 
these systems are attributed with capabilities they don't have 
or are attributed with less capability than they really have.
    Much of what has been focused on in missile defense is the 
ground-based interceptor. The reality is, for STRATCOM in 
particular, the larger capability here is one of a technology 
that does not demand that you have to buy a certain sensor or a 
certain weapon or have a certain command-and-control system.
    The technology of today allows us to integrate, in a plug-
and-play way, in ways we never have been able to do before. 
That allows you to build a collective defense mindset, rather 
than, ``Let me show you how I could do something for you.''
    This allows nations to bring to the table their 
capabilities, tailored for what they believe are their national 
priorities, their role in a collective defense, and contribute, 
and build partnerships, as they come to the table and 
understand the threat in the environment that they feel is 
appropriate to respond to for their national needs. That is 
what is significantly different about this system, that and the 
ability to integrate across, not just short-range ballistic, 
but a wide range.
    So we saw South Korea announce that they wanted to focus on 
short-range capabilities. It was appropriate for their problem, 
but they can tie into the larger system in a way that allows 
them to be an ally.
    Take Australia or the United Kingdom. They tend to move 
with us on a global nature. But they bring to the table 
different weapons systems, different platforms to allow them to 
immediately join and not have to go through an unnecessary 
change in their configuration, et cetera, allows more nations 
to come to the table, understand that this is a defensive 
capability, be able to articulate the characteristics that are 
necessary for them, participate in a different scenario, if it 
is Iraq, as it was here recently, and still be a viable 
contribution.
    That is what is different about this system is its ability 
to move and align policy and technical capability and intent 
and sovereignty into one system.
    Ms. Tauscher. Thank you, General.
    Mr. Everett.
    Mr. Everett. More questions?
    I have often said that missile defense hasn't lacked 
funding so much as it has lacked focus. It has gone off in 
pursuit of different things at different times. And one 
perennial that keeps cropping up is space-based systems, 
satellite-based systems.
    Given your concern about counter-space systems and the 
problems they carry with them, is there any money requested 
this year for space-based interceptors or something that might 
serve that function?
    General Cartwright. The only thing that I am aware of--and 
I will go back and be very precise in the record--but the only 
thing I am aware of that we are endeavoring to do in space is 
to increase our sensor capability.
    Right now, we have a set of sensors that allow us to 
characterize very quickly a launch from anyplace on the Earth. 
We are going to the next generation of that capability. It is a 
program of record----
    Mr. Everett. Space Based Infrared Surveillance (SBIRS)----
    General Cartwright. This is the SBIRS-low portion of--
remember SBIRS-high?
    Mr. Everett. Yes.
    General Cartwright. SBIRS-low? The SBIRS-low piece is 
coming into its initial test demonstration does-this-work 
phase.
    That money is in the budget. I believe--and I would have to 
go back, but I believe it is like 2016 before we actually go 
to--assuming that everything worked, we would go to a fielding 
of that, but, in this budget, is resourced to start to work our 
way through the SBIRS-low side of this, where you get the high-
fidelity, quick-reacting knowledge that something has been 
launched.
    Mr. Everett. Would you like to comment--as long as there is 
a little time, would you like to comment on the complications 
of placing both radars and potential interceptors in Europe? If 
this is not the right setting, I will understand, but----
    General Cartwright. No. This is obviously an ongoing 
activity. So I am trying to be cognizant and not prejudice that 
activity in the negotiations that are ongoing. But I think it 
goes back to the attributes that we would like to find of a 
collective defense, a defense alternative, an alternative to 
offense that is a credible defense.
    What does it look like? What are the attributes of the 
system? How do nations retain a certain amount of sovereignty 
and articulate their needs versus the global need? How do they 
fit in? Those are the questions. And what does that do--I think 
one of the key issues here is what does it do to the balance 
out there?
    If an adversary is focused on offense-only capabilities and 
you introduce a defensive capability, what could be positive is 
that you dissuade them from moving in a direction here--in the 
proliferation of ballistic missiles--in a direction that would 
have them further proliferate ballistic missiles.
    But you have to be sensitive to the balances of offense and 
defense in the region. And so you have got to tailor it for the 
region. And the region has to make a decision on how it wants 
to move forward, and whether it finds value in defensive 
capabilities as an alternative to offensive only.
    Mr. Everett. Thank you very much.
    One other question. What is the role of your command in 
putting together a package of what we call Nunn-Lugar 
Cooperative Threat Reduction (CTR)?
    General Cartwright. I am glad you asked that. And I made 
mention in my opening statement about how important I find 
counter-proliferation, non-proliferation activities.
    Mr. Everett. It was cut below the $400-million traditional 
benchmark this year.
    General Cartwright. I think that Nunn-Lugar and CTR, has 
been an important vehicle in moving us forward, in helping us 
get to a point where we have reduced the threat levels.
    We really need to think about that construct, the 
attributes of Nunn-Lugar, in a broader context for nations who 
are not necessarily today a threat, but who, if we gave them 
the right tools, could, not only move in an appropriate 
direction in the international community, but help themselves.
    Nunn-Lugar gives us the ability to help nations police 
their borders, understand what is happening inside of their 
borders, control that, report, when it is appropriate to 
report, to a larger organization that, ``Hey, I have got a 
problem. Something is here.''
    It has had many successes. It has had many challenges. But 
it has had many successes. What we would like to do is build on 
those successes, helping nations help themselves, in phase zero 
and phase one, long before we get to a conflict-type stage.
    I believe there is an awful lot that we could do in those 
areas that would be hugely leveraging. We are pushing hard to 
start to understand that, working with our counterparts at the 
State Department and trying to understand a framework in which 
we could move this forward on a larger scale than what Nunn-
Lugar had envisioned from the standpoint of the former Soviet 
states.
    Mr. Everett. Thank you, sir.
    Ms. Tauscher. Mr. Franks.
    Mr. Franks. Madam Chairman, I didn't know we were going to 
have another round here. I thought that these other guys were 
just more important than me.
    Ms. Tauscher. At this moment, no one is more important than 
you.
    Mr. Franks. Thank you.
    Ms. Tauscher. For the next three and a half minutes. 
[Laughter.]
    Mr. Franks. Well, General, appreciate getting another 
chance here.
    You know, I obviously agreed with your assessment of the 
importance of later defense, which includes protecting our 
space assets. But given the aggression--or perhaps that is a 
bad word--just the developments in China, Iran and North Korea, 
how do you advise legislators about our current and future 
missile-defense priorities?
    I mean, I know that has been touched on a lot, both in 
terms of funding, and, as Mr. Spratt has said, you know, the 
focus of where those priorities should be.
    General Cartwright. On the missile-defense side, and 
referring to priorities for fulfilling operational need, we 
have advocated for continuing to complete defense of the United 
States, but really to start more focus on deployed forces, 
allies and friends, building an integrated cooperative 
defensive capability globally.
    To me, the deployed forces capabilities and the allies and 
friends, integrating them in, is where we want to be focused 
over the next few years, not to the exclusion, but it offers, 
operationally, a significant amount of leverage in our 
capability and a way to balance our operational offensive 
capabilities, not necessarily just our strategic, but our 
operational forces, because, again, if Aegis only had offensive 
capabilities to bring to the fight, it would send a message by 
its presence, and there are other messages you could use that 
platform to send that would be reducing tension, rather than 
posturing to increase it.
    And having defensive capabilities on your tactical and 
operational, conventional, general-purpose forces is equally 
important to having it in your strategic forces. Does that make 
sense?
    Mr. Franks. Sure.
    Let me just see if I could just key off that, you know. I 
think, as you say, you know, when you have a defensive 
capability that has no intrinsic threat to potential opponents, 
it sort of lowers the decibel level a little bit.
    With that said, you know, with some of the--to use your 
phrase--the forward-deployed forces, allies and friends being 
at potential risk across the world, and, of course, with our 
homeland as well, what do you think--you have stated that there 
is a great advantage in maintaining a defensive posture.
    What do you think the risks are associated with reducing 
the numbers of our interceptors or reducing our emphasis on 
missile defense, as it were, both in the minds of our potential 
adversaries and in real terms?
    General Cartwright. The initial--and you never know on 
second-, third-order effect, but the initial piece is that you 
would have--what we are trying to build is something that we 
can tailor. So the adversary who has a perception of threat 
that is unique to that adversary, we will reduce the tool kit 
that we have to keep them from going to conflict.
    Having more defensive options, in addition to a reasonable 
set of offensive options, allows us to tailor against more 
adversaries, against the adversaries changing their mind and 
changing the character of the threat, as we saw with, say, the 
emergence of terrorists and things like that, the ability to 
have a reasonably comprehensive continuum of capability, which 
goes from non-conflict-type activities to defensive activities 
to conventional to nuclear, having that continuum so that the 
commander of the Pacific Command can look at a particular area 
and say, ``This is what will effect them the most.'' If he has 
a hole in his capability, he is going to have to overbalance 
with something else.
    And so, I mean, you can carry this to an extreme, and I am 
not trying to drive you in that direction, but having a 
reasonable continuum that allows you to tailor appropriate for 
what it is you are trying to address is where we want to get.
    If we end up with no conventional long-range prompt 
ballistic or we end up with a gap in our capability on the 
defensive side, say, against chemical munitions or something 
like that, that becomes a seam, and you have to overbalance to 
compensate for the existence of that seam.
    Mr. Franks. Okay. Well, General, just a last brief 
question. Given the potential of rogue states to gain even a 
nuclear capability, but perhaps with an unorthodox delivery 
system, do you still think that missile defense is important 
and pertinent to, say, again, terrorists getting hold of some 
type of weapon that they might try to deliver--how important do 
you think missile defense is to addressing that problem?
    General Cartwright. From the standpoint of an actual 
scenario, difficult to lay out, but, generally, with a 
terrorist organization, they are looking for a seam by which to 
be aggressive toward you.
    Oftentimes, in the calculus of an adversary, what we are 
seeking to do is take their objective away. So if you take away 
the high-end objectives, they may have been able to afford 
them. They may not have.
    If you take away even the mid-level objectives of, say, 
being able to take a crude weapon or a crude airplane or turn 
some vehicle--if you start to take those away, then you get to 
the very difficult, which is to take away from an individual 
who is willing to sacrifice their life for what they believe is 
a cause. How do you deter that type of an individual? What type 
of defenses do you put together?
    And the reality is, again, you are still trying to take 
away their objective. You may do it through what we would call 
consequence management. In other words, make it very difficult 
to approach a building or to get through an airport, et cetera.
    So you have to layer this in, but you don't want to leave a 
hole in order to go--you don't want to play ninth-grade soccer, 
where everybody goes to the ball. You really want to build a 
continuum.
    But it is--the most difficult is to take away from an 
individual who answers to no one in their timing and is very 
difficult to monitor at the entity level, take away their 
objective from them. That is what you seek to do in consequence 
management.
    Mr. Franks. Thank you, Madam Chairman.
    Thank you, General. I still love your Marine 
understatement.
    Ms. Tauscher. General Cartwright, for an hour and 45 
minutes, you have captivated this committee with one piece of 
paper in front of you. I think you may have referred to it once 
or twice. It probably tells you where you are going next. We 
want to thank you and--see if Mr. Reyes has anything else.
    You want to add another question?
    Mr. Reyes. Just one quick question.
    General, the U.S. currently does not have the capability to 
support Aegis BMD operations in Central Command's (CENTCOM) 
area of responsibility. This is primarily due to the fact that 
all BMD-capable Aegis ships are assigned to the Pacific and 
there are no naval magazines certified to handle this--missiles 
in the CENTCOM AOR.
    Given the current and emerging Iranian ballistic missile 
threat to the region, what steps are you taking to ensure that 
we can conduct Aegis BMD operations in CENTCOM's AOR?
    General Cartwright. The fielding rate now includes ships 
configured and capable. We have to work our way through the 
magazines this year. If we had to act absent the magazines 
being certified, et cetera, we could do that. It would take 
airlift and some other things to work our way through that. We 
can do that.
    It is really more of a policy question, and what is it we 
want to be able to do and what effect do we want to create. And 
it is wrapped up in the larger debate about missile defense in 
Europe and all that. All of these pieces have to come together 
in a way.
    But this highlights for you it could be that we decide we 
want a missile defense capability in that part of the region, 
but not in the--so what would be appropriate? SM-3 gives us an 
awful lot of flexibility in those types of things, as does 
Patriot.
    So we can respond in that area if we believe that that is 
consistent with how we want to posture in that region, and I 
turn to, in this case, currently John Abizaid, but, eventually, 
Admiral Fallon, here as he takes the reins, to think our way 
through that, exercise work with the partners, decide what is 
appropriate, and then when do you want to introduce that 
capability, because you have to be sensitive to the offense-
defense balance that is there now, and the allies that live in 
the region, how they want to posture.
    But, technically and logistically, we can do this.
    Mr. Reyes. All right. Thank you.
    Thank you, Madam Chair.
    Ms. Tauscher. General Cartwright, thank you very much. We 
want to extend our best wishes to you and the thousands of 
people that you command in STRATCOM. Please extend to them our 
very best wishes and thank them for their service. We thank you 
for your service. You are certainly a strategic asset to this 
country.
    We appreciate your time. And we look forward to having you 
testify again before us in the near future. Thank you.
    General Cartwright. Thank you.
    [Whereupon, at 4:48 p.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                             March 8, 2007

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 8, 2007

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T7317.001
    
    [GRAPHIC] [TIFF OMITTED] T7317.002
    
    [GRAPHIC] [TIFF OMITTED] T7317.003
    
    [GRAPHIC] [TIFF OMITTED] T7317.004
    
    [GRAPHIC] [TIFF OMITTED] T7317.005
    
    [GRAPHIC] [TIFF OMITTED] T7317.006
    
    [GRAPHIC] [TIFF OMITTED] T7317.007
    
    [GRAPHIC] [TIFF OMITTED] T7317.008
    
    [GRAPHIC] [TIFF OMITTED] T7317.009
    
    [GRAPHIC] [TIFF OMITTED] T7317.010
    
    [GRAPHIC] [TIFF OMITTED] T7317.011
    
    [GRAPHIC] [TIFF OMITTED] T7317.012
    
    [GRAPHIC] [TIFF OMITTED] T7317.013
    
    [GRAPHIC] [TIFF OMITTED] T7317.014
    
    [GRAPHIC] [TIFF OMITTED] T7317.015
    
    [GRAPHIC] [TIFF OMITTED] T7317.016
    
    [GRAPHIC] [TIFF OMITTED] T7317.017
    
    [GRAPHIC] [TIFF OMITTED] T7317.018
    
    [GRAPHIC] [TIFF OMITTED] T7317.019
    
?

      
=======================================================================


             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                             March 8, 2007

=======================================================================

      
                  QUESTIONS SUBMITTED BY MS. TAUSCHER

    Ms. Tauscher. Today, while USSTRATCOM is active in setting 
warfighter's requirements for military capabilities, it is the 
responsibility of the services to fund and develop those capabilities. 
a. Please describe the working relationship between USSTRATCOM and the 
services. b. Is there a gap between USSTRATCOM's mission needs and the 
services' ability to fund and carry out the needed programs? c. Do you 
perceive a trending convergence or divergence between warfighter 
requirements and the services' programs to carry them forth?
    General Cartwright. a. Processes are in place to address Service 
funded Combatant Commander warfighting requirements, such as the 
Integrated Priority List (IPL), Senior Warfighter Forum (SWARF), Joint 
Requirements Oversight Council and other Senior Leader Forums. While 
the Services are largely responsive to Combatant Commander 
requirements, today's constrained resource environment leads to 
inevitable disagreements on some issues. The current DOD Planning, 
Programming, Budgeting and Execution (PPBE) process anticipates 
``friction points'' and incorporates checks and balances, to include 
direct appeal to the Secretary of Defense, prior to finalizing the 
President's Budget for submission to the Office of Management and 
Budget (OMB). b. Fiscal constraints prevent fully funding all of 
USSTRATCOM's mission requirements; however, the DOD Planning, 
Programming, Budgeting and Execution (PPBE) process provides ample 
opportunity for the Services, COCOMs, Joint Staff and OSD principals to 
vet and determine DOD funding priorities. c. Convergence is perceived 
between warfighter requirements and service programming actions.
    Ms. Tauscher. Over the past 15 years, USSTRATCOM has evolved to 
become a command with many missions. How do you envision the command to 
change in the next 15-20 years?
    General Cartwright. The transformation of U.S. Strategic Command 
over the past 15 years has been one borne out of necessity. All of the 
mission areas, while diverse in their detailed characteristics, are 
strategic in nature and global or unconstrained by geographic 
boundaries. The recent implementation of joint functional components 
places a strong operational focus on the mission areas, while the 
headquarters staff focuses on supporting the President and Secretary of 
Defense, providing strategic guidance to the command, and ensuring 
synchronization across all of the commands efforts.
    Looking into the future, I believe Strategic Command will take on a 
role similar to U.S. Special Operations Command as a force provider of 
unique global capabilities, responsible for cradle to grave 
development, fielding and employment of capabilities in support of 
global operations.
    New or currently unidentified adversaries will continue to emerge. 
Strategic Command will have a greatly increased role in our nation's 
daily defense, as adversaries continue to seek an advantage by avoiding 
our traditional strengths in conventional military forces. In 
particular, cyberspace will become a central front in our national 
defense as criminals, terrorists, and nation states attack our 
vulnerable seams.
    The Strategic Command organizational structure will continue to 
evolve as the New Triad of capabilities is fully fielded. Within 20 
years, most of the capabilities now under development will be fully 
operational and legacy systems designed for the Cold War will be 
gradually phased out. Allied and interagency collaboration will have a 
significantly larger role within Strategic Command's mission areas and 
as a result our relationships beyond the Department of Defense will 
need to be as robust as those internal to DOD are now.
    Ms. Tauscher. In a 2006 report, GAO found that better guidance and 
communications between the STRATCOM leadership and its components was 
needed to enhance the command's ability to execute its missions. a. 
Please describe the relationship between the USSTRATCOM's service 
components and the new JFCCs. Has this relationship had an opportunity 
to fully mature? b. How has the execution of USSTRATCOM's mission 
improved since the implementation of JFCCs?
    General Cartwright. Initially, USSTRATCOM HQ, its service 
components, and functional components relied principally on telephone 
and electronic mail for connectivity and synchronization. These methods 
were far from optimum. Today, new tools are in place. All components 
now enjoy full real-time collaborative connectivity via the STRATCOM 
Knowledge Integration Web (SKIWeb) and Global Operations--Collaborative 
Environment (GOC-CE) at all levels of security. Their employment has 
fostered a much better level of understanding/interaction amongst all 
components; hence a greater ability for timely and on-the-mark 
functional component execution, supported by the capabilities and 
resources supplied by the service components. b. The implementation of 
JFCCs has created synergy among USSTRATCOM's assigned missions. We have 
gained tremendous effectiveness by the alignment of our JFCCs with 
service or agency centers of excellence. We continue to mature this 
capability through robust exercise and training opportunities.
    Ms. Tauscher. According to a September, 2006 GAO report, USSTRATCOM 
JFCCs lack adequate direction and criteria for declaring Full Operating 
Capability. According to that same report, all of the JFCC's were 
scheduled to reach the FOC milestone in 2006 or 2007. What measures 
have been taken to ensure that when the JFCC's reach the FOC milestone 
they have, in fact, achieved the required capability?
    General Cartwright. Our focus in 2006 was to achieve an Initial 
Operating Capability across the command as adequate resources were made 
available. We have established an integrated training and exercise 
program that will evaluate and enhance JFCC and command-wide 
operational capabilities. We will continually monitor the command's 
progress on six month increments. Our components are resourced and 
operational today and we will continue to improve our capability as we 
move toward full operational capability.
    Ms. Tauscher. Please describe the process involved in setting 
requirements for the future nuclear force structure. What is 
USSTRATCOM's role? What obstacles or challenges might be impeding more 
specific definition of military requirements for the future nuclear 
force structure?
    General Cartwright. USSTRATCOM provides warfighter force structure 
requirements to the Nuclear Weapons Council (NWC) through the Nuclear 
Weapons Stockpile Memorandum (NWSM) development process. The process 
culminates in an annual memorandum to the President from the 
Secretaries of Defense and Energy that specifies the size and 
composition of the stockpile. Implementation of the New TRIAD, 
particularly in the areas of offensive strike and responsive 
infrastructure, will enable us to better define future military nuclear 
force structure requirements.
    Ms. Tauscher. Does USSTRATCOM have a position on ratification of 
the CTBT, given that one of the key objectives of RRW is to minimize 
the likelihood of testing?
    General Cartwright. RRW provides a path forward for the long-term 
sustainment of nuclear capabilities in the absence of underground 
nuclear testing. RRW transformation, therefore, will address many of 
the stockpile sustainment concerns raised with respect to ratification 
of the CTBT. RRW, however, is still in the early stages of development 
and a national decision has not been made to proceed. If that decision 
is made, it will take decades to replace all the legacy warheads in the 
stockpile. RRW has the potential to be a key element in the 
ratification of CTBT if we continue through the various development and 
fielding milestones.
    Ms. Tauscher. What is the warfighter's need for RRW? Can the 
warfighter's needs be satisfied by maintaining just the current 
stockpile through the Stockpile Stewardship Program and LEPs?
    General Cartwright. A long-term strategy based on extending the 
life of legacy warheads leaves the nation heavily reliant on a limited 
number of aging, increasingly costly and difficult to maintain warhead 
types for its nuclear deterrent. Such a strategy does not adequately 
exercise the facilities, scientists, engineers, and technicians needed 
for a responsive infrastructure. Many of our legacy warhead types need 
to be refurbished or replaced over the next several decades when the 
scientists, engineers and technicians that developed, tested and 
fielded legacy nuclear weapons will be retired.
    As a result, we continue to maintain a large and costly ``hedge'' 
of non-deployed warheads to mitigate the risks of technological and/or 
operational surprise. It is difficult to predict if, or when, the 
current strategy may become unsustainable or when we will face a 
technical challenge we may not be able to resolve without testing. 
Delaying transformation until we reach that point may put stockpile 
readiness and the nuclear deterrent at significant risk.
    Life Extension Program strategies address individual component 
issues without regard to end-to-end design. Eventually, (10-15 yrs.) 
the number of component changes compromizes our ability to certify in 
the absence of testing.
    Ms. Tauscher. How do decisions on future delivery systems (e.g., 
ICBM, bomber modernization) impact RRW capabilities and timelines? 
Conversely, how do RRW decisions influence development of future 
delivery systems?
    General Cartwright. Future delivery system decisions have little 
impact on RRW capabilities and timelines. The health of the legacy 
stockpile, infrastructure, and planned life extension activities are 
the principal drivers for RRW development and deployment strategy. RRWs 
will be sized to the same dimensions as the legacy warheads they 
replace and provide similar military capability. RRWs will be 
integrated into their delivery systems during development. Modularity 
and interoperability enable compatibility with existing and future 
delivery systems and provides a spiral development pathway for the 
future. The first RRW, for example, will be compatible with the Navy's 
D5 submarine launched ballistic missile and adaptable to the Air 
Force's MinuteMan III inter-continental ballistic missile and follow-on 
long-range strike delivery systems. Future delivery systems will enable 
us to take full advantage of RRW's features through common interfaces 
and the use of common modular components.
    Ms. Tauscher. Have the warfighter's needs been adequately captured 
in the RRW design and decision-making process?
    General Cartwright. USSTRATCOM was an active participant in the RRW 
Feasibility Study and the Nuclear Weapons Council decision making 
process and remains actively engaged to ensure RRW meets warfighter 
needs. These warfighter requirements have been validated in a Joint 
Requirements Oversight Council Memorandum.
    Ms. Tauscher. What role will RRW play in the nation's overall 
strategic deterrence and New Triad objectives, particularly given 
investments in a conventional PGS capability?
    General Cartwright. RRW coupled with a responsive infrastructure is 
an important element in our tailored deterrence strategy. 
Transformation of the nuclear enterprise, coupled with other elements 
of the New TRIAD, will further reduce our reliance on nuclear weapons.
    Ms. Tauscher. What risks do you see, if any, in pursuing a ``Life 
Extension Program-only'' strategy as opposed to proceeding with the 
reliable replacement warhead?
    General Cartwright. A long-term strategy based on extending the 
life of legacy warheads leaves the nation heavily reliant on a limited 
number of aging, increasingly costly and difficult to maintain warhead 
types for its nuclear deterrent. Such a strategy does not adequately 
exercise the facilities, scientists, engineers, and technicians needed 
for a responsive infrastructure. Many of our legacy warhead types need 
to be refurbished or replaced over the next several decades when the 
scientists, engineers and technicians that developed, tested and 
fielded legacy nuclear weapons will be retired.
    As a result, we continue to maintain a large and costly ``hedge'' 
of non-deployed warheads to mitigate the risks of technological and/or 
operational surprise. It is difficult to predict if, or when, the 
current strategy may become unsustainable or when we will face a 
technical challenge we may not be able to resolve without testing. 
Delaying transformation until we reach that point may put stockpile 
readiness and the nuclear deterrent at significant risk.
    Life Extension Program strategies address individual component 
issues without regard to end-to-end design. Eventually, (10-15 yrs.) 
the number of component changes compromizes our ability to certify in 
the absence of testing.
    Ms. Tauscher. Do you perceive a capability gap in the Prompt Global 
Strike arena? If so, when evaluating options for Prompt Global Strike, 
can the warfighter afford to accept the risk imposed by that capability 
gap for the next 12-15 years or more until an alternative technology 
might first be available?
    General Cartwright. A capability gap in the Prompt Global Strike 
arena exists. The nation requires the capability to deliver prompt, 
non-nuclear kinetic effects under all conditions across a range of 
scenarios. Given adversarial offensive space activities, missile and 
WMD proliferation and aspirations, and the potential of emerging high 
value, time sensitive targets in the global war on terror (GWOT), a 
near-term solution to deploy a PGS capability is essential. We also 
require a alternative prompt global strike capability in order to avoid 
high risk, self deterring scenarios.
    Ms. Tauscher. Six years have passed since the 2001 Nuclear Posture 
Review laid out the framework of the New Triad, yet the U.S. has yet to 
implement this new vision. What is your vision for the New Triad? What 
technologies are of greatest importance to the warfighter in trying to 
implement this New Triad?
    General Cartwright. We envision a broad suite of integrated 
offensive and defensive capabilities enabled by persistent global 
command and control (C2), robust planning and intelligence, and a 
responsive defense infrastructure that provides improved agility and 
flexibility in dealing with a wider range of contingencies. 
Technologies of greatest importance include robust offensive, 
defensive, and exploitation cyber capabilities in order to defend the 
Nation's economic base, cruise and ballistic missile defense 
integration into a collective defence network, horizontally integrated 
persistent ISR capabilities, and a broader array of offensive prompt, 
precise kinetic and non-kinetic capabilities are essential.
    Ms. Tauscher. In the Fiscal Year 2007 National Defense 
Authorization Act, Congress expressed a number of concerns with the 
Conventional Trident Modification proposal including the maturity of 
the concept of operations and risk of misinterpretation. Do you believe 
the concerns raised by Congress have been adequately addressed?
    General Cartwright. The Department has worked hard to address 
congressional concerns. In March 2007, we delivered the Conventional 
Trident Modification (CTM) Report to Congress which addressed the CTM 
concept of operations as well as our recommended approaches for 
addressing misinterpretation. The potential risk of misinterpretation 
of a CTM missile launch as a nuclear attack is extremely low and can be 
effectively managed. The United States and the Russian Federation now 
have a more cooperative and less adversarial relationship than during 
the Cold War, and this new relationship provides improved transparency 
and understanding to any launch of a ballistic missile.
    Ms. Tauscher. According to one press article, the Conventional 
Trident Modification submarines would use a weapon virtually identical 
to its nuclear-armed twin; would remain on patrol typically just off 
Russian coasts, potentially posing at least a debris threat to Russia; 
would likely be closed to Russian onsite inspection; and would possibly 
take hours or longer to receive target data and steam within range of 
nations where fleeting threats may appear. By comparison, this article 
claims that ``a land-based missile could be configured so it is 
incapable of carrying a nuclear payload and use a trajectory to its 
target that would not threaten other nuclear weapons nations. It also 
could be inspected by the Russians under existing arms control regimes, 
based on a U.S. coastline so launch debris could fall in the ocean 
rather than on land, and made capable of being rapidly retargeted.'' 
What are your views of the merit of this comparison between the 
Conventional Trident Modification and a possible conventional ICBM?
    General Cartwright. Both land based and sea based prompt global 
strike capabilities are envisioned to be part of the options available 
to national leadership in the future. Both land and sea based prompt 
global strike concepts have unique considerations and characteristics. 
Our approach to prospective concept of operations and international 
engagements seeks to minimize constraints and risks and maximize 
capability. We support continued development of a broad array of prompt 
global strike options to support tailored deterrence in the 21st 
century. Conventional Trident Modification (CTM) is a ``hedge'' 
opportunity to begin closing the gap, and is part of a broader, time-
phased strategy leading to a robust suite of PGS capabilities.
    Ms. Tauscher. In October 2006, the President issued a new national 
space policy. How has, or will, this policy affect STRATCOM missions 
and operations?
    General Cartwright. USSTRATCOM ensures all mission planning, 
coordination and operations are consistent with National Space Policy. 
The revised space policy in 2006 served to echo the already on-going 
efforts at USSTRATCOM in promoting the use of space by all nations for 
peaceful purposes while preserving our rights, capabilities, and 
freedom of action in space.
    Ms. Tauscher. We have seen considerable coverage of the Chinese 
anti-satellite test since our subcommittee met with you immediately 
after the January test. Now that the community has had time to reflect 
on the significance of the event: a. What lessons learned have you 
taken from the event and what aspects of our space operations need 
improvement? b. What type of counterspace and space situational 
awareness systems do you think will be needed in the future to combat 
threats to space? c. Do you see the priorities for space acquisition 
outlined in the 2008 President's Budget altered due to the Chinese ASAT 
test?
    General Cartwright. The Chinese ASAT test increases the risk to the 
manned and unmanned space assets for all space-faring nations and, as a 
result we are re-examining our ability to continue to operate 
effectively in the event of kinetic or non-kinetic ASAT employment by 
an adversary. The test also reaffirmed our need to increase our space 
situational awareness (SSA) abilities. The Air Force, as the Executive 
Agent for Space, identified the need to increase SSA as its number one 
space funding priority. USSTRATCOM will work closely with the services 
to define the appropriate SSA architecture, as well as a viable 
protection strategy for our spacecraft. Vulnerability of low earth 
orbit satellites to increased space debris caused by destructive 
testing or direct attack also highlighted the need to rapidly adjust 
our space readiness levels, and for improved capability to quickly 
launch and augment or reconstitute a space-based asset. b. First, we 
must better understand the ``Who, What, Where, and Why'' regarding 
every space based object and activity. Improvements to our ground and 
space-based Space Situational Awareness (SSA) capabilities will allow 
us to differentiate between environmental and ``man-made'' 
unintentional or malicious effects on the Nation's space assets. 
Capabilities that incorporate improved defensive space posturing 
measures may include shutter controls, anti-jamming, sensor detection, 
proximity warning, enhanced ground facility security, cryptological 
user equipment protection upgrades and other alternatives. c. Yes. 
Additional discussion is classified.
    Ms. Tauscher. What is USSTRATCOM's position on the development of a 
code of conduct or ``rules of the road'' for space-faring nations?
    General Cartwright. While existing Treaties and Conventions provide 
adequate guidance on proper space-faring conduct, we are looking at the 
potential utility of a code of conduct or ``rules of the road'' for 
additional value in providing a common understanding or defining 
differences in acceptable or unacceptable behavior within a medium 
shared by all nations.
    Ms. Tauscher. There are a multiple ways to achieve greater 
survivability and protection of our space assets--hardening, on-orbit 
spares, redundancy, distributed architectures, alternatives such as 
UAVs, active prevention and denial, non-material solutions, and rapid 
replenishment. a. What is the Department's overall strategy for 
assuring support from space systems? If possible, please comment on the 
costs and operational considerations of the different strategies. b. In 
your opinion, what is the military utility of an operationally 
responsive space capability?
    General Cartwright. USSTRATCOM is working to better integrate both 
space and non-space capabilities across multiple domains. This 
integration extends across our national services and agencies to allied 
forces and commercial entities. The resulting ``network'' of 
capabilities, includes communications, Intelligence Surveillance and 
Reconnaissance (ISR), and Space Situational Awareness (SSA) sensors, 
and will maximize our capacity to support the warfighter while 
providing redundancy to critical assets, reducing potential single-
points-of-failure. This approach will diversify our risk portfolio 
across multiple mediums and multiple participants. Better integration 
will further transform the warfighter's perspective of space from 
``platforms and programs'' to ``capabilities and effects.''
    Operationally Responsive Space (ORS) will enable improved 
integration through rapid deployment/employment of new, pre-planned, or 
existing capabilities. It will link operational, acquisition, industry 
partners, and science and technology communities to rapidly exploit 
emergent capabilities to fill operational gaps. ORS will generate 
warfighting effects for operational and tactical use in response to 
urgent or unanticipated needs. The focus is on responsiveness. Tasked 
by a Joint Force Commander, it will be timely and targeted to the need, 
while enhancing survivability and adversary deterrence. b. The 
Operationally Responsive Space (ORS) concept is intended to rapidly 
deliver space capabilities to the Joint Force Commanders. This will 
enable the warfighter to integrate space capabilities when and where 
needed to produce the desired effect. ORS strategy includes rapid 
exploitation of new or innovative space technical and operational 
capabilities, augmenting space capabilities in time of crisis, and 
reconstituting capabilities when required. ORS is presently in the 
experimentation and demonstration phase.
    Ms. Tauscher. The current national security space architecture is 
comprised of big, complex, and costly satellite systems which require a 
decade of development. Cost overruns and schedule delays in space 
acquisition programs, such as SBIRS-High, GPS-IIF, and NPOESS, continue 
to be attributed to requirements growth, inadequate cost estimating, 
and lack of systems engineering, to name a few. a. To what extent have 
these acquisition issues impacted the warfighter? b. What changes to 
the current and programmed national security space architecture would 
you recommend? c. TSAT and Space Radar are costly ``transformational'' 
programs. In this budget constrained environment, is it wise for DOD to 
invest so much of its resources in systems that will not be available 
until 2016 at the earliest? Should the DOD reconsider its 
transformation goals and concentrate on providing users with evolved or 
cloned systems based on those currently under development?
    General Cartwright. Freedom of action in space requires the 
dexterity to counter or out pace threats that are always evolving. The 
Nation continues to depend on complex, robust systems to provide our 
warfighters the necessary tactical, operational and strategic 
advantage. One of the focus areas for space acquisition is continuity 
of service, especially in missile warning, strategic communications, 
and positioning, navigation, and timing. Delays in these programs could 
jeopardize the assured continuity of space support to the warfighter.
    Delaying the capabilities provided by these systems impacts the 
warfighter with increased reliance on aging less reliable, less 
responsive systems. This may result in delay information delays and 
reduced battlefield decision cycles at all echelons. b. USSTRATCOM is 
working to better integrate both space and non-space capabilities 
across multiple domains. This integration extends across our national 
services and agencies to allied forces and commercial entities. The 
resulting ``network'' of capabilities, includes communications, 
Intelligence Surveillance and Reconnaissance (ISR), and Space 
Situational Awareness (SSA) sensors, and will maximize our capacity to 
support the warfighter while providing redundancy to critical assets, 
reducing potential single-points-of-failure. This approach will 
diversify our risk portfolio across multiple mediums and multiple 
participants. Better integration will further transform the 
warfighter's perspective of space from ``platforms and programs'' to 
``capabilities and effects.''
    Operationally Responsive Space (ORS) will enable improved 
integration through rapid deployment/employment of new, pre-planned, or 
existing capabilities. It will link operational, acquisition, industry 
partners, and science and technology communities to rapidly exploit 
emergent capabilities to fill operational gaps. ORS will generate 
warfighting effects for operational and tactical use in response to 
urgent or unanticipated needs. The focus is on responsiveness. Tasked 
by a Joint Force Commander, it will be timely and targeted to the need, 
while enhancing survivability and adversary deterrence. c. USSTRATCOM 
continuously looks to balance the promise of transformational 
capability advances with evolved capabilities. We continue to advocate 
for the attributes inherent in TSAT and Space radar. An incremental/
block approach coupled with these attributes:

      --Integration across domains

      --Integration of allied communications capabilities

      --Diversified risk portfolios

    Ms. Tauscher. Some have observed a ``friction'' between the DOD and 
Intelligence Community on space matters. a. What areas of black-white 
space integration need improvement? b. In your opinion, is the current 
national security space organization and management structure 
responsive to the warfighter? c. If not, what changes to the 
organization and management would you recommend?
    General Cartwright. Black-white space integration continues to 
improve. A far more collaborative operational relationship exists today 
than in the past. Numerous operational examples of collaboration 
include the sharing of data and best practices. Data previously held 
only in black channels is now routinely passed to white world operators 
to help build a comprehensive space activity picture. In our 
organization and management areas, there are many successes, which 
include crossflow of personnel and the establishment of the NRO's 
Deputy Director for Mission Support wearing a second hat as the Deputy 
Commander of my Joint Functional Component Command for Space. These 
initiatives further reinforce on-going collaboration efforts and 
improve situational awareness for both the black and white communities. 
We continue working with the intelligence community on issues of 
classification. b. Recent national security space organizational and 
management structure changes continue to facilitate responsiveness to 
the joint warfighter. The establishment of the USSTRATCOM Joint 
Functional Component Command for Space (JFCC SPACE), designation of the 
Deputy Director of Mission Support for the National Reconnaissance 
Office to serve as the JFCC Space Deputy Commander, and the 
establishment of a Director of Space Forces (DIRSPACEFOR) within the 
theater for support to the Joint Force Commander have been positive 
steps to improve integration of space capabilities into joint 
operations. c. There are no additional organization and management 
changes needed at this time. We continue to look for ways to improve 
our support to warfighters around the globe.
    Ms. Tauscher. In 2002, former Secretary of Defense Rumsfeld 
exempted the Missile Defense Agency from the normal DOD requirements 
process. In understand that STRATCOM and MDA have developed a new 
program called the Warfighter Involvement Program (WIP) to ensure 
warfighter views are incorporated into the missile defense development 
process. To date, are you satisfied with WIP process? Are there areas 
where the process could be improved?
    General Cartwright. The Warfighter Involvement Process (WIP) has 
become the accepted means for advocacy of needed missile defense 
capabilities; however, the process is still growing to meet the demands 
of the warfighter. We are working with the Missile Defense Agency to 
develop a single document describing our respective roles, 
responsibilities, and objectives under the Warfighter Involvement 
Process (WIP). Creation of this formal document establishes a reference 
for the entire missile defense community and serves as the standard 
against which we may gauge future process improvements.
    Ms. Tauscher. In the 2006 Prioritized Capability List (PCL), the 
annual list that STRATCOM provides to MDA outlining the warfighter's 
prioritized list of capability needs for future missile defense 
systems, you outlined a number of key requirements. These included, 
among others: ensuring missile defense communications; maintaining the 
operational availability of the GMD system; and expanding our 
capability to defeat ballistic missiles in their terminal phase. To 
what extent has MDA been responsive to STRATCOM's requirements as 
outlined in the PCL? What areas need improvement?
    General Cartwright. MDA adheres to a capabilities-based ballistic 
missile defense systems acquisition approach. To enhance warfighter 
needs and system development efforts, MDA has partnered with USSTRATCOM 
to develop the Warfighter Involvement Process (WIP). The WIP enables 
prioritized guidance on needed Combatant Commander capabilities to 
MDA's developmental efforts. MDA has announced plans to focus their 
2007 Summer Study around the just delivered second iteration of 
USSTRATCOM prioritized capabilities list (PCL). By taking this 
approach, MDA has clearly indicated their willingness to further 
incorporate warfighter needs into system development and acquisition 
processes. We continue to improve and refine our Warfighter-MDA 
information exchange processes. This includes better definition of the 
capabilities sought in the PCL and greater granularity in the 
capability development plans included in MDA's PCL response. 
Development continues on an effective means for warfighter appraisal of 
these development plans.
    Ms. Tauscher. MDA (and its legacy organizations SDIO and BMDO) is 
first and foremost a research and development organization, whose 
primary responsibility is to develop future capabilities. Because the 
services have generally been reluctant to assume responsibility for 
fielding missile defense capabilities, MDA has been forced to take up 
the slack. Given its new and emerging missions, is MDA currently 
structured to provide optimal support to the warfighter? If not, what 
changes to MDA's current structure would you recommend?
    General Cartwright. MDA is an effective research and development 
activity that focuses on warfighter BMD needs. Recently, MDA leadership 
activated the Warfighter Support Center, located at Schriever Air Force 
Base. The Warfighter Support Center's mission is to coordinate enhanced 
operations and logistics support to warfighting activities. We are 
begnning to take steps to integrate the BMD architecture with the 
appropriate Cruise Missile Defense (CMD) architecture. Military 
Services are developing CMD capabilities independent of a warfighter-
centeric architecture that integrates command and control, battle 
management, sensors, and weapons across these service capabilities. 
Integrating these CMD architectures with those of BMD is problematic 
when CMD lies outside MDA's charter. MDA is focused on providing 
products and services that meet warfighter needs. An example of MDA 
effectiveness includes the BMDS Transition and Transfer planning 
process which provides a framework for the operationalization of BMDS 
elements. We should leverage the ballistic missile defense work MDA has 
completed to date by expanding their focus to include cruise missile 
defense configuration and architecture. A MDA configuration management 
role over service Cruise Missile Defense (CMD) capabilities, responsive 
to a single Air and Missile Defense Integrating Authority that would 
balance and integrate MDA BMD and service CMD development would ensure 
common data standards, command and control, and situational awareness 
integration.
    Ms. Tauscher. In 2002, the Unified Command Plan (UCP) assigned 
STRATCOM responsibility for planning, coordinating, and integrating 
global missile defense operations. However, mission execution (i.e., 
pulling the trigger) remains the responsibility of each geographic 
combatant commander in their respective area of responsibility (AOR). 
Do you believe you currently have sufficient authority to 
``adjudicate'' disputes that could arise between combatant commanders 
during missile defense operations? How are you using your current 
authorities, as outlined in the UCP, to minimize disputes from 
occurring?
    General Cartwright. We do not have the authority to adjudicate 
disputes, rather we provide a recommendation for leadership to consider 
in the deliberation and decision process. We provide supporting 
capabilities to enable mission execution by designated geographical 
combatant commanders. Where issues arise over prioritization of forces, 
through the Request for Forces (RFF) process, we provide a 
recommendation to the Global Force Management Board in determining 
allocation of high demand missile defense forces. We conduct 
collaborative planning and work with the Combatant Commands (COCOMs) to 
resolve areas where disagreements arise. One avenue is the Ballistic 
Missile Defense System (BMDS) Management Structure, with 
representatives from the OCOMs, Missile Defense Agency (MDA), and other 
partners to resolve issues at an early stage. This has been successful 
to date in resolving issues. We continue to conduct wargames such as 
Nimble Titan and exercises with Combatant Commanders to increase our 
knowledge of ballistic missile defense operations. We insert new 
knowledge and lessons learned into current operational procedures and 
plans.
    Ms. Tauscher. STRATCOM recently completed a Capabilities Mix Study, 
which outlines the combatant commander's future missile defense force 
structure requirements. What were the key findings from that study? How 
were the results of that study taken into account in the President's 
FY08 budget request?
    General Cartwright. USSTRATCOM participated in the Joint Staff-led 
Joint Capabilities Mix (JCM) Study that explored weapon and sensor 
mixes to counter expected threats in three major operation areas in 
future epics. Part I recommended an increase to the number of Terminal 
High Altitude Area Defense (THAAD) Firing Units and interceptors, an 
increase of Standard Missile (SM-3) interceptors, and continued support 
of the Sea-Based Terminal program. Once approved, Part II (completed in 
March 2007) will provide an initial recommendation for the minimum 
number of upper-tier THAAD and SM-3 interceptors required for combat 
operations in 2015 for a near-simultaneous two MCO fight. Joint Staff-
led Joint Capabilities Mix (JCM) I concluded in April 2006 and 
influenced MDA's programmatic decisions to increase the number of 
Terminal High Altitude Area Defense (THAAD) Firing Units and 
interceptors, increase the number of SM-3 interceptors, and continue 
support of the Sea-Based Terminal program.
    Ms. Tauscher. In the past, combatant commanders have expressed 
concern that they do not have sufficient numbers of PATRIOT PAC-3 
missiles and sea-based Standard Missile-3 interceptors to deal with 
short, medium, and intermediate range missile threats. Are you 
satisfied with the current number of Patriot PAC-3 missiles and 
Standard Missile-3 interceptors in the inventory? If not, have you 
raised this issue with the Army, the Office of the Secretary of 
Defense, and the Missile Defense Agency? What has been their response?
    General Cartwright. We will make appropriate recommendations on the 
missile inventory as we continue to define and demonstrate Terminal 
High Altitude Area Defense capabilities (THAAD). We believe that THAAD 
effectiveness will have significant impact on the interceptor mix 
quality. In response the Army has increased the buy of PAC-3 missiles, 
and, as a result of the Joint Capabilities Mix (JCM) Study (JCM I 
concluded in April 2006), MDA has increased the number of programmed 
Terminal High Altitude Area Defense (THAAD) Firing Units and 
interceptors, increased SM-3 interceptors, and started a Sea-Based 
Terminal program. However, interceptors alone are not sufficient to 
meet the threat posed by potential adversaries. USSTRATCOM is uniquely 
structured to leverage and synchronize other capabilities, such as 
attack operations and non-kinetic options, in support of the geographic 
combatant commanders.
    Ms. Tauscher. The President's FY08 budget request contains 
sufficient funding for the deployment of a European missile defense 
site. For a number of reasons, deploying long-range interceptors in 
Europe will raise serious command and control challenges. To what 
extent have STRATCOM and other combatant commander begun to plan to 
operate a European missile defense site? What do you believe are the 
key command and control challenges associated with a European missile 
defense site?
    General Cartwright. We have just begun to work with USEUCOM and 
USNORTHCOM for operations of the Ground-Based Interceptors and 
Midcourse Discriminating Radar in Europe, but have not yet developed a 
formal operations concept.

      (1) Coordinating the Command and Control relationships.

      (2)  The integration with current and emerging NATO systems and 
C2 architectures (Active Layered Theater BMD, and the possible NATO 
Missile Defense Feasibility Study-recommended capabilities).

      (3) Bilateral support arrangements with Host Nations.

    Ms. Tauscher. In 2004, STRATCOM conducted a Military Utility 
Assessment of the initial set of ground-based missile defense 
capabilities deployed in California and Alaska. The purpose of this 
assessment was to determine how military effective those capabilities 
were. That said, how confident are in the current capabilities resident 
in the GMD system? Are there areas where you believe improvements need 
to be made? Do you have any plans to conduct another Military Utility 
Assessment of the GMD system in the near future?
    General Cartwright. We assess that the Ballistic Missile Defense 
System (BMDS) has the potential to defend the homeland, deployed 
forces, friends, and allies against a limited attack of from ballistic 
missile threats. Command and Control and Battle Management are areas 
where we need to continue improving. MDA and the Services continue to 
develop and provide BMD and Cruise Missile Defense (CMD) weapons, 
sensors, and command and control systems. The effective use and 
integration of the C2 and Battle Management capabilities remains the 
warfighters greatest challenge. The Combatant Commands, MDA, and 
Service Force Providers continue to work together to develop and 
implement our tactics techniques and procedures for fighting with these 
expanding capabilities. Version 2007 of the BMDS MUA has completed 
general/flag officer coordination and once finalized will be forwarded 
to the Chairman of the Joint Chiefs of Staff.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. EVERETT

    Mr. Everett. The Air Force indicates that it intends to start 
retiring U-2 aircraft in FY 2008--one in FY08, five in FY09, eight in 
FY10, one in FY11, and fifteen in FY12. Last year, Congress prohibited 
U-2 retirement unless the Secretary of Defense could certify it no 
longer contributed to mitigating ISR gaps identified in the Pentagon's 
2006 Quadrennial Defense review. a. Given the issue you raise in your 
testimony about warfighter information needs not being met, is this 
retirement in the best interest of the nation? b. In your testimony, 
you mentioned we can afford to take risks in some mission areas. What 
mission areas will see greater risk given the retirement profile of the 
U-2? c. In what timeframe do you anticipate follow-on capabilities with 
equal or greater capability to be proven and fielded, and how might 
current budget constraints or programmatic issues associated with 
potential follow-on systems impact this fielding timeline?
    General Cartwright. USSTRATCOM conducted a study that evaluated the 
Department's plan to replace the U-2 with Global Hawk and determined 
that the U-2 drawdown introduced regional risk but did not result in a 
significant reduction in enterprise capacity or cause a technical 
collection gap. As a result, the Air Force revised their U-2 to Global 
Hawk transition plan to cover the STRATCOM identified regional risk and 
ensure continued support of the combatant commander's intelligence 
requirements. This plan sequences the U-2 divestiture with successful 
demonstration of Global Hawk capabilities to ensure no overall loss of 
high altitude airborne ISR capability.
    b. Transition to Global Hawk provides for persistent coverage not 
today available from legacy systems such as U-2s, effectively 
increasing coverage by a factor of 2-3 times. The current Air Force U-2 
to Global Hawk transition plan addresses regional risk identified by 
USSTRATCOM, sequencing the U-2 divestiture with successful 
demonstration of Global Hawk capabilities to ensure no overall loss of 
high altitude airborne ISR capability.
    c. The Global Hawk program has undergone restructuring due to Nunn-
McCurdy requirements, to include its fielding schedule. Fielding of the 
block 30(M) Global Hawk aircraft will provide an integrated, multi-
intelligence sensor suite consisting of electro-optical, synthetic 
aperture radar, and signals intelligence payloads, providing greater 
capability and more flexibility than the U-2. Block 30(M) aircraft will 
begin arriving in the field starting in FY11. Global Hawk will enable 
increased mission duration, greater area coverage, and signals, radar, 
and imagery collection simultaneously from one aircraft on one mission, 
resulting in greater intelligence, surveillance, and reconnaissance 
(ISR) effects delivered to our joint warfighers. Unanticipated resource 
challenges could extend the transition. Platform ``offramps'' have been 
developed to ensure no loss in capability.
    Mr. Everett. Does STRATCOM see any barriers to fully implementing 
the Joint Intelligence Operations Centers (JIOCs)? If so, what are 
they?
    General Cartwright. USSTRATCOM does not foresee any barriers to 
fully implementing the Joint Intelligence Operations Centers (JIOCs).
    Mr. Everett. Please provide your assessment of the state of black-
white space integration. What is working well and what areas need 
improvement? Consider this question in the context of operations, 
planning and acquisition, and organization and management.
    General Cartwright. Black-white space integration continues to 
improve. A far more collaborative operational relationship exists today 
than in the past. Numerous operational examples of collaboration 
include the sharing of data and best practices. Data previously held 
only in black channels is now routinely passed to white world operators 
to help build a comprehensive space activity picture. In our 
organization and management areas, there are many successes, which 
include crossflow of personnel and the establishment of the NRO's 
Deputy Director for Mission Support wearing a second hat as the Deputy 
Commander of my Joint Functional Component Command for Space. These 
initiatives further reinforce on-going collaboration efforts and 
improve situational awareness for both communities. We continue working 
with the intelligence community on issues of classification.
    Mr. Everett. How will the Chinese anti-satellite test affect the 
warfighter's priorities in space? How do you foresee this event 
affecting the composition and attributes of our national security space 
architecture?
    General Cartwright. The Chinese ASAT test increases the risk to the 
manned and unmanned space assets for all space-faring nations. We are 
re-examining our ability to continue to operate effectively in the 
event of kinetic or non-kinetic ASAT employment by an adversary, to 
include the use of both space- and terrestrially based capabilities. 
The test also reaffirmed our need to increase our space situational 
awareness (SSA) abilities. The Air Force, as the Executive Agent for 
Space, identified the need to increase SSA as its number one space 
funding priority. USSTRATCOM will work closely with the services to 
define the appropriate SSA architecture, as well as a viable protection 
strategy for our spacecraft. Vulnerability of low earth orbit 
satellites to increased space debris caused by destructive testing or 
direct attack also highlighted the need to rapidly adjust our space 
readiness levels, and for improved capability to quickly launch and 
augment or reconstitute a space-based asset.
    Mr. Everett. In the 2006 Prioritized Capability List (PCL), the 
warfighter's list of prioritized missile defense capability needs, 
STRATCOM outlined a number of key requirements. These included, among 
others: ensuring missile defense communications; maintaining the 
operational availability of the GMD system; and expanding our 
capability to defeat ballistic missiles in their terminal phase. a. To 
what extent has MDA been responsive to STRATCOM's requirements as 
outlined in the PCL? b. What areas need improvement?
    General Cartwright. MDA adheres to a capabilities-based ballistic 
missile defense systems acquisition approach. To enhance warfighter 
needs and system development efforts, MDA has partnered with USSTRATCOM 
to develop the Warfighter Involvement Process (WIP). The WIP enables 
prioritized guidance on needed Combatant Commander capabilities to 
MDA's developmental efforts. MDA has announced plans to focus their 
2007 Summer Study around the just delivered second iteration of 
USSTRATCOM Prioritized Capabilities List (PCL). By taking this 
approach, MDA has clearly indicated a willingness to further 
incorporate warfighter needs into system development and acquisition 
processes. b. We continue to improve and refine our Warfighter-MDA 
information exchange processes. This includes better definition of the 
capabilities sought in the Prioritized Capabilities List (PCL) and 
greater granularity in the capability development plans included in 
MDA's PCL response. We are also looking at the possibility of 
integrating the development of Cruise Missile Defense capabilities with 
ongoing Ballistic Missile Defense System (BMDS) efforts.
    Mr. Everett. To what extent are the Combatant Commanders 
influencing the Services force structure planning? More specifically, 
to what extent are the COCOMs missile defense requirements being 
incorporated into the Services long-term operational force structure 
sizing?
    General Cartwright. In general, combatant commanders influence 
Service force structure planning through Senior Leadership Review 
Groups as part of the Planning, Programming, Budgeting, and Execution 
Process; annual Integrated Priority Lists (IPL); and Joint Capabilities 
Integration and Development System (JCIDS) processes. For missile 
defense, combatant commanders present their capability needs to the 
Missile Defense Agency (MDA) via the Warfighter Involvement Process 
(WIP) and the Prioritized Capabilities List (PCL). As systems are 
developed and mature, MDA uses the BMDS Transition and Transfer 
planning process as the venue where developmental and fielding plans, 
through negotiations with designated lead Services, are incorporated 
into Service force structure planning.
    Mr. Everett. Assume for a moment that the nation did not go forward 
with RRW but rather maintained the existing stockpile through stockpile 
stewardship and Life Extension Programs (LEPs), then fast forward 10-15 
years from now. Do we start to take risk and if so, in what areas? What 
impact would this have on our nation's stockpile readiness and the 
ability of the stockpile to meet our nation's strategic deterrence 
needs?
    General Cartwright. A long-term strategy based on extending the 
life of legacy warheads leaves the nation heavily reliant on a limited 
number of aging, increasingly costly and difficult to maintain warhead 
types for its nuclear deterrent. Such a strategy does not adequately 
exercise the facilities, scientists, engineers, and technicians needed 
for a responsive infrastructure. Many of our legacy warhead types need 
to be refurbished or replaced over the next several decades when the 
scientists, engineers and technicians that developed, tested and 
fielded legacy nuclear weapons will be retired.
    As a result, we continue to maintain a large and costly ``hedge'' 
of non-deployed warheads to mitigate the risks of technological and/or 
operational surprise. It is difficult to predict if, or when, the 
current strategy may become unsustainable or when we will face a 
technical challenge we may not be able to resolve without testing. 
Delaying transformation until we reach that point may put stockpile 
readiness and the nuclear deterrent at significant risk.
    Life Extension Program strategies address individual component 
issues without regard to end-to-end design. Eventually, (10-15 yrs.) 
the number of component changes compromizes our ability to certify in 
the absence of testing.

                                  <all>

</pre></body></html>
